<html>
<title> - PUBLIC SAFETY AND CIVIL RIGHTS IMPLICATIONS OF STATE AND LOCAL ENFORCEMENT OF FEDERAL IMMIGRATION LAWS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
    PUBLIC SAFETY AND CIVIL RIGHTS IMPLICATIONS OF STATE AND LOCAL 
                ENFORCEMENT OF FEDERAL IMMIGRATION LAWS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                AND THE

                   SUBCOMMITTEE ON THE CONSTITUTION, 
                   CIVIL RIGHTS, AND CIVIL LIBERTIES

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             APRIL 2, 2009

                               ----------                              

                           Serial No. 111-19

                               ----------                              

         Printed for the use of the Committee on the Judiciary


   Available via the World Wide Web: http://judiciary.house.govFOR 
                               SPINE deg.
    PUBLIC SAFETY AND CIVIL RIGHTS IMPLICATIONS OF STATE AND LOCAL 
                ENFORCEMENT OF FEDERAL IMMIGRATION LAWS



    PUBLIC SAFETY AND CIVIL RIGHTS IMPLICATIONS OF STATE AND LOCAL 
                ENFORCEMENT OF FEDERAL IMMIGRATION LAWS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                AND THE

                   SUBCOMMITTEE ON THE CONSTITUTION, 
                   CIVIL RIGHTS, AND CIVIL LIBERTIES

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 2, 2009

                               __________

                           Serial No. 111-19

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
48-439                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
ROBERT WEXLER, Florida               STEVE KING, Iowa
STEVE COHEN, Tennessee               TRENT FRANKS, Arizona
HENRY C. ``HANK'' JOHNSON, Jr.,      LOUIE GOHMERT, Texas
  Georgia                            JIM JORDAN, Ohio
PEDRO PIERLUISI, Puerto Rico         TED POE, Texas
LUIS V. GUTIERREZ, Illinois          JASON CHAFFETZ, Utah
BRAD SHERMAN, California             TOM ROONEY, Florida
TAMMY BALDWIN, Wisconsin             GREGG HARPER, Mississippi
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DEBBIE WASSERMAN SCHULTZ, Florida
DANIEL MAFFEI, New York
[Vacant]

       Perry Apelbaum, Majority Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman
HOWARD L. BERMAN, California         STEVE KING, Iowa
SHEILA JACKSON LEE, Texas            GREGG HARPER, Mississippi
MAXINE WATERS, California            ELTON GALLEGLY, California
PEDRO PIERLUISI, Puerto Rico         DANIEL E. LUNGREN, California
LUIS V. GUTIERREZ, Illinois          TED POE, Texas
LINDA T. SANCHEZ, California         JASON CHAFFETZ, Utah
ANTHONY D. WEINER, New York
CHARLES A. GONZALEZ, Texas
WILLIAM D. DELAHUNT, Massachusetts

                    Ur Mendoza Jaddou, Chief Counsel
                    George Fishman, Minority Counsel
                                 ------                                

  Subcommittee on the Constitution, Civil Rights, and Civil Liberties

                   JERROLD NADLER, New York, Chairman

MELVIN L. WATT, North Carolina       F. JAMES SENSENBRENNER, Jr., 
ROBERT C. ``BOBBY'' SCOTT, Virginia  Wisconsin
WILLIAM D. DELAHUNT, Massachusetts   TOM ROONEY, Florida
HENRY C. ``HANK'' JOHNSON, Jr.,      TRENT FRANKS, Arizona
  Georgia                            STEVE KING, Iowa
TAMMY BALDWIN, Wisconsin             JIM JORDAN, Ohio
JOHN CONYERS, Jr., Michigan          LOUIE GOHMERT, Texas
STEVE COHEN, Tennessee
BRAD SHERMAN, California
SHEILA JACKSON LEE, Texas

                     David Lachmann, Chief of Staff

                    Paul B. Taylor, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             APRIL 2, 2009

                                                                   Page

                           OPENING STATEMENTS

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law
  Oral Statement.................................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law
  Oral Statement.................................................     3
  Prepared Statement.............................................   242
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties
  Oral Statement.................................................     5
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary
  Oral Statement.................................................     6
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, Chairman, Committee on the 
  Judiciary, and Member, Subcommittee on the Constitution, Civil 
  Rights, and Civil Liberties
  Oral Statement.................................................     7
The Honorable Melvin L. Watt, a Representative in Congress from 
  the State of North Carolina, and Member, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties
  Oral Statement.................................................     8
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law
  Oral Statement.................................................     9

                               WITNESSES

Mr. Julio Cesar Mora, Avondale, AZ
  Oral Testimony.................................................    11
  Prepared Statement.............................................    12
Mr. Antonio Ramirez, Community Advocate, Frederick, MD
  Oral Testimony.................................................    14
  Prepared Statement.............................................    16
Ms. Deborah W. Weissman, Reef C. Ivey II Distinguished Professor 
  of Law, Director of Clinical Programs, University of North 
  Carolina at Chapel Hill School of Law
  Oral Testimony.................................................    20
  Prepared Statement.............................................    22
Mr. Ray Tranchant, Operations Director, Advanced Technology 
  Center, Virginia Beach, VA, Adjunct Professor at Cambridge 
  College, Cambridge, MA, Chesapeake Campus, and Bryant and 
  Stratton College, Virginia Beach, VA
  Oral Testimony.................................................    52
  Prepared Statement.............................................    53
Mr. David A. Harris, Professor of Law, University of Pittsburgh 
  School of Law
  Oral Testimony.................................................    73
  Prepared Statement.............................................    75
Mr. Hubert Williams, President, Police Foundation
  Oral Testimony.................................................    79
  Prepared Statement.............................................    81
Mr. George Gascon, Chief, Mesa Police Department, Mesa, AZ
  Oral Testimony.................................................    83
  Prepared Statement.............................................    84
Mr. Kris W. Kobach, Professor of Law, University of Missouri-
  Kansas City School of Law
  Oral Testimony.................................................    85
  Prepared Statement.............................................    88

                                APPENDIX

Material Submitted for the Hearing Record........................   245


    PUBLIC SAFETY AND CIVIL RIGHTS IMPLICATIONS OF STATE AND LOCAL 
                ENFORCEMENT OF FEDERAL IMMIGRATION LAWS

                              ----------                              


                        THURSDAY, APRIL 2, 2009

      House of Representatives,                    
       Subcommittee on Immigration,                
          Citizenship, Refugees, Border            
            Security, and International Law        
              Subcommittee on the Constitution,    
                 Civil Rights, and Civil Liberties,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittees met, pursuant to notice, at 10:15 a.m., 
in room 2141, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee on Immigration, 
Citizenship, Refugees, Border Security, and International Law) 
presiding.
    Present from the Subcommittee on Immigration, Citizenship, 
Refugees, Border Security, and International Law: 
Representatives Lofgren, Jackson Lee, Waters, Gutierrez, King, 
Harper, Poe, Chaffetz, and Smith (ex officio).
    Present from the Subcommittee on the Constitution, Civil 
Rights, and Civil Liberties: Representatives Nadler, Watt, 
Scott, Delahunt, Johnson, Conyers, and Franks.
    Staff Present from the Subcommittee on Immigration, 
Citizenship, Refugees, Border Security, and International Law: 
Traci Hong, Majority Counsel; Lou DeBaca, Majority Counsel; 
Andrea Loving, Minority Counsel; and Andres Jimenez, Majority 
Professional Staff Member.
    Staff Present from the Subcommittee on the Constitution, 
Civil Rights, and Civil Liberties: David Lachmann, Majority 
Subcommittee Chief of Staff; Paul Taylor, Minority Counsel; and 
Matt Morgan, Majority Staff Assistant.
    Ms. Lofgren. This joint hearing of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and 
International Law, as well as the Subcommittee on the 
Constitution, Civil Rights, and Civil Liberties, will come to 
order.
    We welcome to this joint hearing all of you. I would like 
to thank our witnesses for being here to examine the public 
safety and civil rights implications of State and local 
enforcement of the Federal immigration laws.
    This Congress has long recognized the particular threat 
that immigrant women face in domestic violence. As recognized 
by Legal Momentum, a respected organization that advocates for 
the rights of women and girls, beginning in 1994 with the 
Violence Against Women Act, known as VAWA, Congress created 
special visas for undocumented women who are being abused by 
their spouses so that they do not have to live in fear of 
deportation if they complain to the police about abusive 
spouses.
    VAWA was reauthorized in 2000, along with the creation of 
two new visas for undocumented victims of violence, those that 
suffer from severe forms of human trafficking, and those who 
are helpful in prosecuting crimes. These programs have been 
repeatedly reauthorized and expanded by Congress over the last 
decade, including, in 2008, with the William Wilberforce 
Trafficking Victims Protection Reauthorization Act, to ensure 
that victims of violence have an opportunity to escape their 
abusers.
    Unfortunately, due in part to bad implementation and poor 
Federal supervision, in recent months I have begun to hear 
story after story of the Federal program created by Congress in 
1996 that appears to fly in the face of all the work Congress 
has done to protect victims of violence. This program, known by 
most as the 287(g) program, allows the Department of Homeland 
Security to enter into agreements with State and local law 
enforcement to deputize them to enforce immigration law.
    While some may feel that the program is necessary to ensure 
enforcement of immigration law, everyone should agree that it 
should be implemented and supervised in an appropriate manner 
to ensure the public safety and protection of civil rights. 
Unfortunately, the stories I have been told over the last 
several months suggest much more needs to be done to make sure 
that the 287(g) agreements do not undermine the protection of 
our communities, victims of violence, or civil rights.
    Moreover, in just the last 2 years, 60 of 67 287(g) 
agreements have been signed, despite the fact that this program 
has been around for almost 13 years. With this recent explosion 
in interest in 287(g) agreements, more and more jurisdictions 
across the Nation are enforcing Federal immigration laws even 
without entering into a 287(g) agreement with DHS.
    Today we will hear from a witness who has stepped up to 
tell us disturbing stories of abusive local law enforcement of 
immigration law regarding people too afraid to tell their own 
stories for fear of retaliation. Antonio Ramirez of Frederick, 
Maryland will tell us of a woman who was afraid to call the 
police when she was beaten up by her husband because he has 
threatened to seek her deportation and take their child away 
from her. She said she is so scared that she simply tolerates 
the beatings instead of calling the police, who she believes 
will deport her because of the stories she has heard of the 
local police enforcing immigration law.
    The media and attorneys representing Rita ``Fany'' Cote 
tell us that Ms. Cote's sister called 911 because her sister's 
boyfriend was choking her. When the police arrived, they had 
trouble communicating with the victim, so the victim's 
undocumented sister, Ms. Cote, who had better English skills, 
offered to help translate. But the police checked everyone's 
immigration status, and rather than arresting the boyfriend who 
choked her, they instead arrested Ms. Cote. She had to leave 
behind her three young U.S. Citizen children and her U.S. 
Citizen husband and be taken to Lake County Jail, where the 
Tavares Police Department held her for more than a week.
    The disturbing stories go beyond victims of domestic 
violence. One of our witnesses today, Julio Cesar Mora, a U.S. 
citizen, born and raised in Arizona, was on his way to work 
with his 66-year-old dad--a legal, permanent resident who has 
lived in the U.S. since the 1960's--when two black SUVs with 
Maricopa County police officers aggressively pulled them over. 
Without explaining the reason for the stop, the officers told 
Mr. Mora and his father to get out of their car, and they were 
handcuffed. They were taken to his father's workplace, where an 
immigration raid was underway. They were held there for several 
hours until they had the opportunity to explain that they were 
lawfully present in the U.S. As Mr. Mora explains, ``To this 
day, I don't know why the officers stopped us. I don't think 
it's fair the way we were treated.''
    If this Congress is committed to protecting the public 
safety in our communities, to protecting victims of crime, and 
to protecting civil rights, then we are required to examine the 
effects of State and local law enforcement of immigration law.
    I look forward to hearing from our witnesses today. And I 
know that they will help us conduct this very important 
examination.
    It is important that as we seek to enforce the law, that we 
also live under the law. And that is what this hearing is about 
today.
    I would now recognize our distinguished Ranking minority 
Member of the Subcommittee on Immigration, Citizenship, 
Refugee, Border Security and International Law, Steve King, for 
his opening statement.
    Mr. King. Thank you, Madam Chair. I appreciate this 
hearing. And I appreciate the witnesses coming forward to 
testify. It is never easy to sit down before this Congress and 
submit yourselves to the questions that will come from the 
Members on this panel. But before we begin our discussion 
today, I would like to set out the underlying Federal law that 
governs State and local law enforcement.
    The use of race or national origin in law enforcement is 
only strictly prohibited when race or national origin is the 
sole criteria for the law enforcement action--in fact, I should 
say sole criterion--and it has to be based upon an invidious 
purpose.
    As the Supreme Court made clear in the 1996 case of Bush v. 
Vera, mere racial disproportions in the level of law 
enforcement activity for a particular crime may be 
unobjectionable if they merely reflect a racial 
disproportionality in the commission of that crime.
    To give an example, the Supreme Court has upheld a program 
in which vehicles passing through a permanent checkpoint 66 
miles from the Mexican border were visually screened by Border 
Patrol agents for occupants who appeared to be of Mexican 
national origin. In that case, and in the United States v. 
Martinez-Fuerte, the Court held that it was constitutional for 
the Border Patrol, after routinely stopping or slowing 
automobiles at a permanent checkpoint, to refer motorists 
selectively to a secondary inspection area for questions about 
citizenship and immigration status. The Court held that there 
were no constitutional violations as long as such referrals 
were made largely on the basis of apparent Mexican ancestry.
    The Supreme Court made clear in the 1981 case of Haig v. 
Agee that ``such holdings are appropriate given that it is 
obvious and unarguable that no government interest is more 
compelling than the security of the Nation.''
    Even beyond the context of border security, law enforcement 
has broad discretion to reasonably rely on the factors of race 
and national origin as long as such criteria are not the sole 
criterion that invidiously motivates action by law enforcement.
    Indeed, under the Department of Justice's own official 
guidelines on the use of race by law enforcement, it is made 
clear that in conducting an ongoing investigation into a 
specific criminal organization whose membership has been 
identified as being overwhelmingly of one ethnicity--Mara 
Salvatrucha, for example--law enforcement should not be 
expected to disregard such facts in pursuing investigative 
leads into the organization's activities.
    The Department of Justice guidelines further state that 
Federal authorities may also use reliable, locally relevant 
information linking persons of certain race or ethnicity to a 
particular incident, unlawful scheme, or ongoing criminal 
enterprise, including a gang, even absent a description of any 
particular individual suspect.
    Of course, law enforcement is at its discretion and can 
impose on itself restrictions beyond what is prohibited by 
constitutional law and precedents, but those decisions should 
be made by State and local law enforcement working to protect 
citizens in local jurisdictions, not by Members of Congress 
thousands of miles away here in Washington, D.C.
    So what are the effects of these policies? I would suggest 
that, when used correctly by law enforcement officials, the 
effect is safer communities. And safer communities are also 
created when State and local law enforcement officials help to 
enforce Federal immigration law. That is made even more clear 
when we look at examples in which State or local law 
enforcement has failed to do so.
    For instance, four of the 9/11 hijackers had documented 
contact with State or local law enforcement officers after 
entering the United States. All four were pulled over for 
traffic infractions at one point in the months before September 
11, 2001. Unfortunately, none were reported to Federal 
immigration officials, despite their violations of Federal 
immigration laws. We all know the devastating results of the 
hijackers' malicious activities, and can only speculate how 
many lives might have been saved.
    Operation Community Shield is an ongoing example of 
benefits of coordination among Federal, State and local law 
enforcement entities. It is a law enforcement program in which 
Federal, State and local law enforcement officials work 
together to conduct criminal investigations and other law 
enforcement operations against violent criminal alien street 
gangs. According to ICE, since Operation Community Shield's 
inception, 7,655 street-gang members and associates from over 
700 different gangs have been arrested and are no longer on 
America's streets; 107 of those arrested were gang leaders, and 
more than 2,555 of those arrested had violent criminal 
histories.
    By virtue of their sheer numbers, 740,000 State and local 
law enforcement personnel come into contact with many more 
people on any given day than do Federal enforcement officials. 
This contact can result and has resulted in the arrests of 
illegal immigrants who would otherwise be free to commit future 
crimes. Remember, no crime by illegal aliens would ever occur 
if they were removed from the United States before they could 
strike. These are truly senseless crimes.
    Sadly, the state of local law enforcement officers who came 
into contact with Alfredo Ramos prior to March 30, 2007 were 
prohibited by their jurisdictions from coordinating with 
Federal immigration officials. I say sadly, because since on 
that day, Ramos killed 16-year-old Tessa Tranchant and her 17-
year-old friend, Allison Kunhardt. We will hear shortly about 
the devastating effects of lack of law enforcement coordination 
from Tessa's father, who is here today.
    Tessa, Allison, their families, and the other victims of 
criminal aliens, are the ones whose country failed to protect 
them. They are the true victims. If we have to choose between 
political correctness and ensuring the safety of the American 
people, I will choose the American people in a heartbeat.
    Thank you, Madam Chair. I yield back.
    Ms. Lofgren. I would now recognize the Chair of the 
Constitution Subcommittee, Mr. Nadler, the co-convener of this 
hearing, for his opening statement.
    Mr. Nadler. Thank you, Madam Chairwoman. I am pleased to be 
able to join you in holding this hearing on the civil rights 
implications of State and local enforcement of Federal 
immigration laws.
    This is the second joint hearing being held by the 
Constitution and Immigration Subcommittees. That is significant 
because we have received many reports from around the country 
about law enforcement officials in some jurisdictions going 
beyond the law and engaging in abusive activities we had hoped 
were no longer found in this country.
    It is important that the law is enforced effectively. It is 
also important that the rule of law is respected by everyone, 
especially by those charged with enforcing it. Unfortunately, 
it appears that in their zeal to enforce immigration laws, some 
local law enforcement officials have gone far afield, violating 
our civil rights laws, violating the Constitution, violating 
the rights of U.S. citizens and of noncitizens who are here 
legally. That is not law enforcement, that is subversion of the 
law.
    We need to ask some very important questions today. Most 
importantly, is it appropriate to have local police enforcing 
the immigration laws, or is that Federal function better left 
to the Federal Government? If it is appropriate, are Federal 
dollars being spent correctly, with proper oversight and within 
the requirements of the law? If they are not, if a particular 
local police enforcement agency is violating the law 
systematically, should the Department of Justice revoke the 
section 287(g) contract on the grounds that that police agency 
is not conducting itself within the bounds of the law and 
cannot be trusted to enforce the law under the law?
    In some instances, we have seen a pattern and practice of 
violating people's civil rights. Reports of widespread racial 
profiling, threats against the exercise of first amendment 
rights, retaliation against newspaper reporters who print 
unflattering comments about local officials, selective 
prosecutions, the abuse of arrestees and prisoners, among other 
problems, demand a careful investigation.
    We have witnesses here today who will tell of some very 
compelling and distinguishing stories. I hope the Members of 
this Committee will pay careful attention.
    Whatever your views on immigration policy, I hope we can 
all agree that the police power does not give anyone the right 
to declare open season on anyone who may ``look foreign'' to 
someone else. That is not the American way. In fact, It is 
illegal, and the Federal Government has a duty, just as we did 
when local law enforcement colluded with the Ku Klux Klan many 
years ago, to intervene and protect individual rights against 
local law enforcement if they are violating such rights, 
without fear or favor.
    I thank the distinguished Chairwoman, and I yield back the 
balance of my time.
    Ms. Lofgren. The gentleman yields back.
    I am advised that the Ranking Member of the Constitution 
Subcommittee would like to waive his opening statement, so we 
will go to the Ranking Member of the full Committee, Mr. Smith, 
for his opening statement.
    Mr. Smith. Madam Chair, I hope this hearing will explore 
the detrimental effects of sanctuary cities that prohibit State 
and local law enforcement officials from helping enforce 
immigration laws and making our communities safer.
    The 740,000 State and local law enforcement officials in 
the United States should do all they can to protect the 
American people. That includes helping enforce immigration 
laws. Otherwise, criminals and even terrorists are able to prey 
on innocent victims.
    This very harm occurs on a regular basis in sanctuary 
cities across the United States. For instance, the director of 
A Christmas Story, Bob Clark, was killed by an illegal 
immigrant drunk driver in Los Angeles in April, 2007. An 
illegal immigrant gang member shot three students in Newark, 
NJ, execution style in August 2007. He was free on bail, and 
was facing charges of aggravated assault and sexual abuse of a 
child at the time of the murders.
    An illegal immigrant from Mexico was arrested in January 
2008 after DNA matched him to a series of rapes of teenage 
girls in Chandler, AZ. Seventeen-year-old Jamiel Shaw, Jr. was 
murdered by an illegal immigrant in Los Angeles in March 2008. 
He had been released from jail on an assault charge the day 
before he killed Shaw.
    An illegal immigrant who had numerous past violent crime 
convictions savagely murdered Tony, Michael and Matthew Bologna 
in San Francisco in July 2008. The father and two sons were all 
shot while sitting in a car.
    Last November, 83-year-old Lila Meizell was murdered in 
Wheaton, Maryland by three illegal immigrants who beat her to 
death and burned her alive to cover up a check-writing scheme.
    An illegal immigrant gang member shot 14-year-old Tai Lam 
in October last year in Montgomery County, MD.
    Unfortunately, there are countless more examples. The 
287(g) program was created in the Illegal Immigration Control 
and Immigrant Responsibility Act of 1996, which I co-authored. 
The program allows DHS to enter into an agreement with a State 
or locality so their law enforcement officers can assist in the 
investigation, apprehension, and detention of illegal aliens. 
It is purely voluntary on behalf of local law enforcement 
officials.
    In recent years, the annual number of jurisdictions 
participating has risen dramatically from one in 2002 to 67 
currently. In fact, DHS cannot keep up with the increased 
demand. In fiscal year 2007, ICE received 69 new applications. 
According to ICE, the vast majority were rejected because of 
limited funding.
    According to ICE, ``Since January, 2006, the 287(g) program 
is credited with identifying more than 79,000 individuals, 
mostly in jails, who are suspected of being in the country 
illegally.''
    When we wrote the bill that created section 287(g), our 
goal was to help local law enforcement officials reduce the 
crimes committed by illegal immigrants. Law enforcement 
officials have testified that this voluntary program does work.
    Also, as the co-author of the legislation enacting the 
287(g) program, let me state clearly that it was not our intent 
that the program would only be used to address serious criminal 
activity. The program was created to let State and local law 
enforcement officials help enforce all immigration laws and to 
remove illegal immigrants from the streets before they go on to 
commit preventable crime.
    Those who are serious about public safety should not only 
support the program but also call for its expansion. We should 
do more, not less, to protect the lives and well-being of all 
Americans. We should do more to make our communities safer.
    I thank you, Madam Chairman, and I yield back.
    Ms. Lofgren. The gentleman yields back.
    I would now recognize the Chairman of the House Judiciary 
Committee, the Honorable John Conyers, for his opening 
statement.
    Mr. Conyers. Thank you, Madam Chairman. And I wish to thank 
all my colleagues for being here. But before I do, something 
unusual has happened in the Judiciary Committee that I would 
take a moment to bring your attention to. We have had a 
nomination of Lou DeBaca, Esq., to be Ambassador at Large for 
Human Trafficking in the State Department, made recently by the 
President of the United States. He has to go before the Senate 
for confirmation. So we would like to just have recorded here a 
round of applause for him. It doesn't commit you to support him 
or testify against him, but let's----
    Ms. Lofgren. Would Lou DeBaca please stand up?
    Thank you, Mr. Chairman. And I think on a bipartisan basis, 
we do recognize the tremendous work that Lou has done for the 
Committee, and especially for the human trafficking bill that 
was so broadly supported across the aisle and brought to the 
President and is a triumph. And really Lou's effort made that 
happen. It was a terrific service to the country.
    Mr. Conyers. I yield to Steve King.
    Mr. King. I thank the Chairman, and I appreciate the 
acknowledgement.
    I used to think that when the lights are on at night, it 
was because somebody left them on. But I submit, instead, it is 
Lou working late at night to do his job and do his duty. So 
that is an example of the kind of dedication we have here 
across our staffs on both sides of the aisle. I think it is 
very appropriate for us to acknowledge and celebrate that kind 
of effort and the kind of career path that we see Lou on. So I 
congratulate you and I appreciate the work you do.
    Mr. Conyers. Thank you very much. To have both Committees 
here, both Subcommittees, and to have our colleagues, Ted Poe 
and Greg Harper, join us in the proceedings today is very 
significant to me.
    We are here talking about a very small part of our 
immigration problems. Out of 17,000 law enforcement 
jurisdictions, we have 67 that are using 287(g) that requires 
our presence here today. We even have Professor Harris, 
formerly at Toledo Law School, now at Pittsburgh University Law 
School, who has written two books on the subject of profiling, 
who will help make it clear to me and Steve King that racial 
profiling, as a policy in and of itself, is not acceptable 
except where it is in connection or in relationship to a 
specific crime, where a suspect's description comes in that 
way. But otherwise, it is considered a pretty gross violation 
of the 14th amendment's equal protection clause, but we will be 
hearing more about that as we go on.
    In a true spirit of bipartisanship, I would like to remind 
the Committee that President George W. Bush, in his first 
Inaugural Address, spoke very strongly against racial profiling 
as an unsatisfactory police technique. And Attorney General 
Ashcroft, who has sat in this room on many occasions, even 
recently, had joined with him in decrying the inaccurate or 
improper use of racial profiling.
    And so we are talking about 67 jurisdictions out of 17,000 
where frequently sheriffs have made a practice of racial 
profiling for political gain. I hate to say this in this day 
and age, but immigrant bashing is a pretty popular sport, 
unfortunately, in some areas. When we first started off on the 
issue of racial profiling, the phrase was ``driving while 
Black.'' Driving while Black, you get pulled over, period. 
``What did I do wrong?'' ``Look, buddy, give me your license 
and proof of ownership and insurance and we will talk about it. 
We have got a right to stop anybody that we think is violating 
the law.'' That is profiling.
    Now Hispanic Americans are even more frequently being 
targeted. And so I commend Chairman Nadler and Chairwoman 
Lofgren for calling us together for this hearing.
    Ms. Lofgren. Thank you, Mr. Chairman. By unanimous consent, 
the Chairman is granted an additional 30 seconds so he may 
yield to Mr. Watt.
    Mr. Watt. I thank the gentlelady for bending the rules in 
that way.
    I really wanted recognition only to express my thanks to 
the Chair of both Subcommittees for addressing an issue that is 
raging in local communities in which these programs exist and 
in local communities in which they do not exist because there 
is a significant movement, I think, to some extent driven by 
money, to expand these programs.
    The issues that Mr. King and Mr. Smith on one side have 
outlined and the ones that have been outlined on our side about 
profiling and other concerns about constitutional rights are 
all legitimate. And these issues have been addressed in local 
communities, rather than here where they need to be addressed. 
So I just wanted to express thanks and hope we can find a happy 
balance.
    Ms. Lofgren. And the Chairman is granted an additional 30 
seconds by unanimous consent so he may yield to Mr. Poe.
    Mr. Poe. Thank you very much. Of course profiling a person 
based on race is abhorrent to our system, but we must also deal 
with the reality of the problems that we have with illegals 
that have committed crimes in this country.
    The city of Houston, TX, has over 400,000 illegals, but yet 
they claim they are not a sanctuary city. And they have finally 
decided, based upon the fact that the last several peace 
officers who have been shot have been shot by people illegally 
in the country, to move forward with the 287(g) program. I 
think we should explore that and make sure that the 287(g) 
program works, and that local law enforcement that wants to use 
it to help prevent people from committing crimes in this 
country who are from foreign countries, wherever they're from, 
should be enhanced rather than rejected.
    I yield back.
    Ms. Lofgren. The gentleman yields back.
    All of those bells and whistles mean that we have been 
called to the floor of the House for a series of votes. What I 
would like to do is to introduce the witnesses, kind of as a 
teaser for those watching on the Web, so that they will 
continue to watch and we will come back.
    I think we have at least an hour of votes, honestly, so we 
are going to set a time of 11:45 to reconvene so that people 
will have a chance--there is a cafeteria in the basement; you 
can get a cup of coffee, and you won't have to sit here in this 
room for an hour waiting for us to come back.
    But before we go, let me introduce the panel of witnesses.
    First, It is my pleasure to introduce Julio Cesar Mora. Mr. 
Mora is a 19-year-old native of Arizona. He was raised by his 
father, Julian Mora, and is the youngest of five kids. He 
attended Estrella High School. And on February 11, 2009, he was 
detained with his father by the Maricopa County Sheriff's 
Office for close to 3 hours at the site of Handyman 
Maintenance, Incorporated in Phoenix, Arizona.
    Next, I would like to introduce Antonio Ramirez. Mr. 
Ramirez is an American citizen. He has dedicated his life to 
helping low-income families and immigrants here in the United 
States as well as in Mexico. Upon coming to the United States 
more than 20 years ago, Mr. Ramirez had his sights set on 
Manhattan, but he fell in love with Frederick, Maryland where 
he has created his new life.
    Mr. Ramirez immediately became involved in his new 
community by volunteering at a hospice serving individuals with 
HIV, and at a nursing home teaching English, and working as a 
substitute teacher in public schools.
    In 2003, Mr. Ramirez helped start a nonprofit organization 
called Nuestra Casa del Pueblo, Our House of the People, which 
assists local Latino and immigrant populations to integrate and 
to improve their lives. The organization also focuses on 
improving relationships between police agencies by teaching 
officers basic Spanish and Latino culture.
    Unofficially, Mr. Ramirez acts as a liaison for many in the 
Latino community in organizations like the Frederick County 
Health Department, legal aid groups, and the Frederick County 
Community Action Agency, as well as the Frederick County 
Department of Social Services, as well as many others.
    Next, I would like to introduce Deborah Weissman. Professor 
Weissman is the Reef Ivey II distinguished professor of law and 
director of clinical programs. She is a Phi Beta Kappa graduate 
of Syracuse University, and she graduated cum laude from 
Syracuse University Law School.
    Prior to teaching law, she has had extensive experience in 
all phases of legal advocacy, including labor law, family, 
education-related civil rights, as well as immigration law, in 
Albuquerque, New Mexico, and Tampa, Florida, and as a partner 
in a civil rights firm in Syracuse, New York. From 1994 to 
1998, she was deputy director and then executive director at 
Legal Services of North Carolina.
    Finally, I would like to introduce Professor Ray Tranchant. 
Mr. Tranchant is currently director of the Advanced Technology 
Center in Virginia Beach. He is also an adjunct professor at 
Cambridge College in Cambridge, Massachusetts, Chesapeake Bay 
campus, and Bryant and Stratton College in Virginia Beach, 
teaching mathematics, IT project management, and e-commerce 
management courses.
    Mr. Tranchant is a graduate of the United States Naval 
Academy, a former naval flight officer, and a former public 
school teacher.
    Mr. Tranchant's advocacy for border security and national 
security resulted primarily from the tragic March 2007 murder 
of his 16-year-old daughter Tessa by an illegal immigrant who 
had several previous criminal convictions.
    We look forward to hearing the testimony of all four 
witnesses, but we will do so in about an hour. So this hearing 
is recessed. We will see you back in approximately an hour.
    [Recess.]
    Ms. Lofgren. I am hopeful theMinority will be here soon. 
Ah, Mr. King is here; that is great. But because of our recess 
for votes--and we will be called again to votes in about an 
hour--I would like to begin hearing the testimony.
    Under our rules, the full written statement of each witness 
will be made part of our official record. And so what we would 
like to ask you to do, as much as possible, is to deliver your 
oral remarks in about 5 minutes.
    There are two little odd machines there on the desk, and 
that is our lighting system that lets you know when your time 
is almost up. When the yellow light goes on, it means that you 
have 1 minute to go. And when the red light goes on, it means 
you have actually used 5 minutes. And, at that point, we won't 
cut you off mid-sentence, but we would ask you to please wrap 
up, because we have a second panel after you. And we want to 
make sure that we hear from everybody who has traveled from, in 
some cases, great distances to be here and to say something 
important to the Congress.
    So, Mr. Mora, we would like to begin with your testimony 
now, please.

          TESTIMONY OF JULIO CESAR MORA, AVONDALE, AZ

    Mr. Mora. Hello. My name is Julio Cesar Mora. I am 19 years 
old, and I am from Avondale, Arizona. I have three brothers, 
one sister, and we were all born in the United States. My 
mother passed away when I was still little, so I have mostly 
been raised by my dad. My dad is 66 years old, and he still 
works so that he can support all of us. He is a lawful, 
permanent resident.
    In February, I was driving with my dad to work when we were 
stopped by the police. We left Avondale around 5 a.m. To go to 
my dad's work, HMI Contracting, a landscaping business in 
Phoenix. On the way, we passed two black police SUVs parked 
under a bulletin board. Then, about 15 seconds later, one of 
the SUVs caught up and stopped right in front of us. My dad had 
to slam on the brakes to avoid hitting the SUV that was in 
front of us because it was so aggressive.
    I didn't understand why the SUV trapped us like that. My 
dad was driving just fine. One of the officers came up to the 
window and asked us where were we going. We told him my dad was 
just going to work. The police made us get out of the car. They 
patted us down and tied our hands together with zip ties like 
we were criminals. They tied my arm really tight, and it left 
marks on my arms. I later learned that the officers were 
deputies of the Maricopa County Sheriff's Office.
    The deputies brought us to HMI, where there were about 80 
people lined up and a lot of other police officers guarding 
them, telling them to turn off their cell phones. The officers 
were carrying guns, and some were wearing face masks.
    My dad asked if he could use the bathroom; the officer said 
no. My father asked five times to use the bathroom. His stomach 
was really hurting. I was worried because he has diabetes and 
has a hard time holding it. My dad eventually got to go, but it 
wasn't until after he asked several more times and told an 
officer he was going to go right there in front of everyone. 
And even then, he had to go outside behind a car. It really 
hurt me that they embarrassed him like that.
    Later, I also had to go, and they let me use the bathroom, 
but three officers guarded me and refused to untie my hands. I 
tried to go with my hands tied but couldn't. When I asked one 
of them for help, he said, ``What is the matter? You can't find 
it?'' I felt like they were making fun of me and felt very 
ashamed.
    I went back to stand in line. When I got to the front of 
the line, I told officers that I am a U.S. citizen and was born 
here. I gave my Social Security number. He checked me in the 
computer, and finally they let me go, almost 3 hours after it 
all began. They let my dad go, too, because he is a lawfully 
permanent resident.
    To this day, I don't know why the officers stopped us out 
of all the cars on the road. I don't think it is fair, the way 
we were treated. The police are supposed to keep us safe, but 
they are arresting us instead of the real criminals. I still 
think of that day sometimes, when I had to go to the bathroom 
in front of the police who mocked me, they took away our pride, 
my dad's and mine.
    Thank you for letting me speak today.
    [The prepared statement of Mr. Mora follows:]

                 Prepared Statement of Julio Cesar Mora

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Ms. Lofgren. Mr. Mora, we thank you for your testimony and 
for coming all the way to appear before us today.
    Mr. Mora. Thank you.
    Ms. Lofgren. Mr. Ramirez, we would be pleased to hear from 
you.

TESTIMONY OF ANTONIO RAMIREZ, COMMUNITY ADVOCATE, FREDERICK, MD

    Mr. Ramirez. Thank you, Chairman Lofgren, Chairman Nadler, 
and Ranking Member King and Ranking Member Sensenbrenner and 
Members of the Subcommittee. And thank you for the opportunity 
you gave me to testify in front of you.
    My name is Antonio Ramirez, and I am here today very sad. I 
wish people like me who wash, who build houses, who do the hard 
jobs in Fredrick were here. But one of the reasons for me to be 
a citizen is that I can speak for others because they cannot 
speak for themselves.
    And I told my friends I have a great opportunity to speak 
for everybody in Frederick, and they told me, ``Antonio, it is 
not a good idea. They can do something bad to you.'' And I 
said, ``Don't worry. I will bring with me the Constitution of 
the United States and a copy of my citizenship and the faith in 
God they don't treat me like criminal because of the way I 
look.'' If I put it best, that is because I give respect to 
everybody. But I work very hard.
    And we are now the target in Frederick, not because of our 
background; it is because of our skin, the way we look. Even 
when we are residents, legal citizens, we are stopped, we are 
harassed. And we lost the trust--we lost our trust in the 
police. It is not because we come from countries where the 
police is corrupt. No, it is because of cultural fear, to be 
afraid to report any crime.
    I know a woman who lives with domestic violence, and she is 
so afraid of losing her son and having him taken away from her. 
I know there are other people like me, who look like me, they 
have papers. The police will ask, ``Where did buy that license? 
Where did you get a Social Security card?'' I pay my taxes.
    And I am very sad here to tell you, and I feel sad because 
I am a human being, forget about the color of my skin, forget 
about my accent, look at a human being under this Constitution, 
when everybody has equal opportunities. And it is very sad 
after 400 years to keep talking about immigration. This is not 
a new topic for the United States. United States was created 
for immigrants, and now in Frederick we are treated badly.
    I have lived in and around Frederick for the last 20 years, 
and the last 2 years they are very afraid. And you see in my 
testimony what I said. I can make a list. It is not enough, 
three pages, what has happened in Frederick. I can make you 
more pages.
    And maybe all you see is, ``Oh, there is another Latino 
whining.'' No, it is another human being who lives in the 
United States, under the greatest country in the world. And I 
can tell you, other friends are being stopped because they have 
something hanging from their mirror. That is the excuse. It 
happened to me. I was driving in the Hillcrest neighborhood, 
and they stopped me, and the police told me he thought I don't 
have my seatbelt on. When he hear I can articulate some 
English, he stop a little bit. He checked my license, and he 
let me go. And I know other people, they have been stopped 
because they are driving slowly. And I know other people, 
citizens, residents, they are asking for green cards and Social 
Security.
    And I want to talk also about, I have offered many times to 
the sheriff in Frederick to help him to do the 287 the right 
way, if there is a right way. And it is not the first time that 
I have worked with the local police. Years ago, I developed a 
program with the city police, the sheriff police, a sensitivity 
cultural program, 8-week program. When all the police come to 
my training, our class, to learn who we are, why we are in 
Frederick, to know more about us. And I really am very sad 
today, after I offered to work with the sheriff together, he 
never took me seriously. He never paid attention to me. He just 
listen to me and let me go.
    I am very proud to be American. There is a reason I carry 
the Constitution. This is my Constitution I received when I was 
given my citizenship, and I keep it with me. This is my hope, 
this is my hope today, for justice for all. This is my hope 
today. Don't give me a title, don't target me. I am a person 
like you.
    And I can mention all the incidents that have happened in 
Frederick, all the families that are destroyed for 287(g). And 
I offered to the sheriff to work with me. And he is working 
with another organization, a nativist extremist group, Help 
Save Maryland. What is the difference between that group and 
myself? I can help him to catch the real criminals. And I offer 
my job free.
    Like I told him, just because I speak broken English does 
not mean that I don't love this country. I love this country. I 
give my life, I believe in this country, it is the reason I am 
here. I am here, and I am proud to be American. God bless you, 
America.
    [The prepared statement of Mr. Ramirez follows:]

                 Prepared Statement of Antonio Ramirez

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Ms. Lofgren. Thank you very much, Mr. Ramirez.
    Professor Weissman?

TESTIMONY OF DEBORAH W. WEISSMAN, REEF C. IVEY II DISTINGUISHED 
PROFESSOR OF LAW, DIRECTOR OF CLINICAL PROGRAMS, UNIVERSITY OF 
          NORTH CAROLINA AT CHAPEL HILL SCHOOL OF LAW

    Ms. Weissman. Good morning, Chairwoman Lofgren, Ranking 
Member King, Chairman Nadler, and Members of the Subcommittees. 
My name is Deborah Weissman, and I a professor at the 
University of North Carolina School of Law. And I am a coauthor 
of a report entitled, ``The Policies and Politics of Local 
Immigration Enforcement Laws.'' The report focused on 
implementation of the 287(g) program in North Carolina and the 
impact on our communities when local law enforcement agencies 
undertake immigration enforcement duties. And I thank you for 
the opportunity to appear before you today.
    In North Carolina, several communities that are 
participating in the 287(g) program have histories of racial 
violence and traditions of White supremacy, which often 
contribute to an environment hostile to the local Latino 
community. 287(g) whether it operates in the field or in a 
jail, is not a program that can be simply handed off to 
localities without consideration of history and context. It is 
a program that often serves to reinforce local practices of 
racism and racial bigotry.
    In North Carolina, some local elected officials, including 
those who have signed on or supported 287(g) treatments, have 
publicly expressed views that have denigrated immigrants 
regardless of their status, based on racist stereotypes and 
baseless assumptions. Let me provide some examples.
    Shortly after signing on to 287(g) Sheriff Terry Johnson of 
Alamance County made brazenly racist claims about Mexicans, 
stating, ``Their values are a lot different, their morals, than 
what we have here. In Mexico, there is nothing wrong with 
having sex with a 12- or 13-year-old girl.'' Before the 2004 
Presidential election, the same Sheriff Johnson threatened to 
go door to door to investigate the immigration status of 
registered voters with Hispanic last names, a scare tactic not 
new to African-Americans in our State.
    Consider the comments of Johnston County Sheriff Steve 
Bizzell. Bizzell was a member and then president of the North 
Carolina Sheriff's Association in 2007, the same year that the 
association issued a resolution referring to undocumented 
immigrants as ``illegal alien invaders.'' Bizzell stated 
Latinos are ``breeding like rabbits'' and that they ``rape, 
rob, and murder American citizens.'' He called Mexicans 
``trashy.'' He reminisced about the Johnston County of his 
youth, when immigrants were ``all in a group, down a path 
somewhere, in a camp,'' even though he admitted that living 
that way was bad for them as human beings.
    Through 287(g) agreements, deputies and officers across the 
State who may be lead by Sheriff Johnson or influenced by 
Sheriff Bizzell have the resources and virtually unfettered 
authority to act on a discriminatory sentiment that they have 
espoused. Such a situation cultivates the illegal activity of 
racial profiling. Just last month, hate groups were invited to 
join in the battle over whether counties should sign on to 
287(g). And this was not the first time that hate groups have 
been implicated in North Carolina's response to the increasing 
rates of Latino immigrants.
    History demonstrates that there is a very thin line 
dividing anti-immigrant laws from those that diminish the civil 
rights and due process protections of citizens. And I would 
like to share two stories today.
    The first, Paul Cuadros, a professor in the school of 
journalism at UNC and a U.S. Citizen. He describes being pulled 
over on his way to a soccer game with his friend, Francisco, in 
Chatham County, where there is currently contentious debate 
about whether to sign on to 287(g).
    He says, ``I knew instantly what was going to happen.We 
were two Hispanic men in dark sunglasses on a slow Sunday 
afternoon. After asking for my license and registration and 
keeping me and Francisco waiting for what seemed an unusually 
long time to check my information, the officer told me why he 
had stopped me. He said my license plate monthly sticker had 
faded. The year was fine--new, in fact--but the month was hard 
to see. He just wanted to let me know that. I knew exactly what 
he wanted me to know.'' Professor Cuadro says, ``If you have 
never been racially profiled, then you don't know how much 
control it takes to restrain your anger over the violation of 
your civil liberties.''
    Another example is that of a woman I will call ``E,'' a 
naturalized U.S. citizen who complained to her employer in 
Alamance County of significant mistreatment and discrimination 
at work. He told her she was crazy to think that she would have 
any recourse, and because she was an immigrant she should stop 
complaining. He referred to the passage of 287(g) as an 
indication of her lesser and vulnerable status.
    And this is not the only example of immigrants whose legal 
rights are blunted because of this program. One major concern 
is the impact that this program is having on victims of 
domestic violence and other crime victims who are terrified to 
call the police for protection, seek assistance, and aid in law 
enforcement efforts. These are just a few of the examples that 
indicate the rippling effect of 287(g) in the community.
    Given the local cultural practices and histories that 
mediate the implementation of what remains Federal law and 
standards, we need a moratorium on this program until there can 
be an assessment and until greater safeguards, oversight, and 
accountability can be provided.
    Thank you.
    [The prepared statement of Ms. Weissman follows:]

               Prepared Statement of Deborah M. Weissman

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Ms. Lofgren. Thank you very much, Professor Weissman.
    Finally, Professor Tranchant?

   TESTIMONY OF RAY TRANCHANT, OPERATIONS DIRECTOR, ADVANCED 
  TECHNOLOGY CENTER, VIRGINIA BEACH, VA, ADJUNCT PROFESSOR AT 
CAMBRIDGE COLLEGE, CAMBRIDGE, MA, CHESAPEAKE CAMPUS, AND BRYANT 
            AND STRATTON COLLEGE, VIRGINIA BEACH, VA

    Mr. Tranchant. First, I want to thank you distinguished 
ladies and gentlemen for allowing me to share my testimony with 
you. I am not here personally for your sympathy but may offer 
maybe a couple of solutions to you elected officials from my 
perspective, a man for 2 years that has intensely studied the 
problems and consequences of lax and opposing immigration laws.
    Two years ago this week, my 16-year-old daughter, Tessa, 
and her best friend, Ali Kunhardt, were killed as they were 
sitting at an intersection waiting for a red light to change in 
Virginia Beach. They both had their seatbelts on and were doing 
nothing wrong. They were really wonderful kids with really 
bright futures. But their lives ended suddenly and 
unnecessarily when a drunken, illegal immigrant hit them at 
more than 70 miles an hour. Ramos, whose blood alcohol level 
was almost three times the legal limit, didn't see the girls, 
the car, or the red light because of his intoxication, period. 
The crash killed Tess and Ali instantly; Ramos walked away 
unhurt.
    At first, my focus was on mourning my daughter and her 
friend. Our community, friends, and family stood with us, 
honoring their memories. But anger and feeling of betrayal took 
over when I discovered at the trial that Alfredo Ramos could 
have been and should have been deported long before he ran that 
red light.
    In fact, this accident wasn't the first time that Ramos 
walked away from a drunken incident. It wasn't even the second 
time. Ramos had been arrested twice before for driving under 
the influence and public intoxication. He had a fake driver's 
license from Florida and could not speak English at all. But 
because of sanctuary policies in Virginia Beach and Chesapeake, 
Virginia, nobody--not the judge in the prior DUI case or the 
police who arrested him in the prior incidents--questioned him 
about his immigration status. Instead of being deported to his 
home country, he stayed on the streets of Virginia Beach, to 
drink, drive, and subsequently kill these two beautiful girls 
in a way that displayed a wanton disrespect for the laws of our 
land.
    He seemed invisible to the system. I am not sure if your 
American kids or relatives would have had the same opportunity 
to fail in such a way. They probably would have been 
incarcerated, legitimate licenses suspended. Insurance 
payments, they would go through the roof. And they would have 
had to pay very large attorneys' fees. Ramos pays nothing, has 
no driver's training, no insurance, no lawyer, no license.
    And now the American people have to spend about $30,000 a 
year incarcerating him for 40 years, at a cost of about $1.2 
million. And that is not including the uninsured motorist 
claims that probably equal a half a million. We are talking $2 
million here. Ladies and gentlemen, this happens twice a month 
in this country.
    The deaths garnered local and national media attention: The 
Virginia Pilot, The Washington Post, The American Chronicle, 
MSNBC, CNN, FOX News. Mr. O'Reilly and Geraldo argued over it 
on Fox and talked about Tess and Ali, and their story shed 
light on the tragic consequences of lax immigration policies.
    Gladly, some important things have changed in Virginia 
Beach and Chesapeake in the last 2 years. Virginia Beach now 
requires that police check the immigration status of all 
arrested. Virginia Beach and Chesapeake passed measures 
requiring that companies doing business with the cities pledge 
not to hire illegal immigrants. Last July, a statewide law took 
effect which requires local jails to contact Federal 
authorities to check the immigration status of all foreign-born 
inmates, irrespective of whether they are in the country 
legally or illegally. And local police officers are working 
more closely with Federal authorities than ever before.
    But the threat still continues. Despite recommendations 
from the State's Attorney General and the Virginia State Crime 
Commission, Virginia's Governor has yet to ask Federal 
authorities for a 287(g) agreement. And ICE may not have the 
resources to support that agreement anyway. The 287(g) program 
would allow the State to enter into an agreement with the 
Federal Government so that the State law enforcement officers 
can assist in the investigation, apprehension, and detention of 
illegal immigrants.
    Opponents of this cite a supposed chilling effect on 
cooperation between immigration communities and police, the 
cost of the program, or the potential for racial profiling as 
reasons to reject this. Well, as I testify before you today, I 
expect to hear many of these arguments. While I sympathize with 
those arguments, I am not compelled. I know what chilling is: 
They happen on the average of twice a month with illegal 
immigrants in America, transparent criminals in a broken system 
that lets them kill or injure honest citizens.
    A family should not have the mourn the death of a loved one 
just because of an unrelated policy or the political 
correctness of not offending someone or inconveniencing a few 
people here or there. This prevents us from making our 
community safer, a constitutional right to all citizens, 
safety.
    Newsweek columnist Robert Samuelson recently wrote, ``We 
face a choice between a society where people accept modest 
sacrifices for a common good or a more contentious society 
where a group selfishly protects their own benefit.'' I would 
have to tell you now that the causality of Tess's death was the 
failure to enforce this law.
    Thank you.
    [The prepared statement of Mr. Tranchant follows:]

                  Prepared Statement of Ray Tranchant

    First I want to thank you distinguished Ladies and Gentlemen for 
allowing me to share my testimony with you. I am not here personally 
for sympathy, but may offer a couple of solutions to the Elected 
Officials from my perspective, a man that for 2 years has intensely 
studied the problems and consequences of lax and opposing Immigration 
Laws.
    Two years ago this week, my 16-year-old daughter, Tessa, and her 
best friend, Ali, were killed as they were sitting at an intersection 
waiting for a red light to change. They both had their seatbelts on and 
were doing nothing wrong.
    They were wonderful girls with bright futures.
    But their lives ended suddenly and unnecessarily when a drunken 
illegal immigrant hit them at more than 70 miles an hour. Alfredo 
Ramos, whose blood alcohol level was almost three times the legal 
limit, didn't see the girls' car or the red light and couldn't because 
of his intoxication. The crash killed Tessa and Ali instantly. Alfredo 
Ramos walked away unhurt.
    At first, my focus was on mourning my daughter and her friend. Our 
community, friends and family stood with us, honoring their memories.
    But anger and a feeling of betrayal took over when I discovered at 
the trial that Alfredo Ramos could have been--should have been--
deported long before he ran that light. In fact, this accident wasn't 
the first time that Alfredo Ramos walked away from a drunken incident. 
It wasn't even the second time.
    Alfredo Ramos had been arrested twice before--for driving under the 
influence (DUI) and public intoxication. He had a fake driver's license 
from Florida and could not speak English.
    But because of Sanctuary policies in Virginia Beach and Chesapeake, 
Virginia, nobody--not the judge in a prior DUI case or the police who 
arrested him in the prior incidents--questioned him about his 
immigration status. Instead of being deported to his home country, he 
stayed on the streets of Virginia Beach to drink, drive, and take two 
innocent lives in a way that displayed a wonton disrespect for the laws 
of our land.
    He seemed invisible to the system. I'm not sure if your American 
kids or relatives would have had the same opportunity to fail. They 
probably would have been incarcerated, legitimate license suspended, 
insurance payments would go through the roof, and they would have had 
to pay large attorney's fees. Ramos pays nothing, has no driver's 
training, no insurance, no lawyer, no license, and now the American 
People have to spend approximately $30,000/ year for 40 years 
($1,200,000) to rehabilitate--then deport him. The Taxpayers have to 
pay for it!
    The deaths garnered local and national media attention: The 
Virginia Pilot, The Washington Post, The American Chronicle, MSNBC, 
CNN, Fox News, and many others wrote and talked about Tessa and Ali. 
Their stories shed light on the tragic consequences of lax immigration 
policies.
    Gladly, some important things have changed in Virginia Beach and 
Chesapeake in the last two years. Virginia Beach now requires that 
police check the immigration status of all arrested. Virginia Beach and 
Chesapeake passed measures requiring that companies doing business with 
the cities pledge not to hire illegal immigrants. Last July, a 
statewide law took effect which requires local jails to contact federal 
authorities to check the immigration status of all foreign-born 
inmates, irrespective of whether they are in the country legally. And, 
local police officers are working more closely with federal authorities 
than ever before.
    But a threat remains!
    Despite recommendations from the state's Attorney General and the 
Virginia State Crime Commission, Virginia's Governor has yet to ask 
federal authorities for a 287 (g) agreement; and ICE may not have the 
resources to support such a request. The 287(g) program would allow the 
state to enter into an agreement with the federal government so that 
state law enforcement officers can assist in the investigation, 
apprehension and detention of illegal immigrants. Opponents of 287(g) 
cite a supposed ``chilling effect'' on cooperation between immigrant 
communities and police, the cost of the program, or the potential for 
racial profiling as reasons to reject it.
    As I testify here today, I expect to hear many of these arguments.
    While I sympathize with those arguments, I am not compelled. I know 
about chilling experiences. They happen on the average of twice a month 
with Illegal Immigrants in America, transparent criminals in a broken 
system that lets them kill or injure honest citizens.
    A family should not have to mourn the death of a loved one just 
because of an unrelated policy or the political correctness of not 
offending or inconveniencing a few people. This prevents us from making 
our communities safer, a Constitutional right to all citizens of the 
United States.
    Newsweek columnist Robert J. Samuelson recently wrote:
    ``We face a choice between a society where people accept modest 
sacrifices for a common good or a more contentious society where a 
group selfishly protect their own benefit.''
    I believe this to be true.
                               __________

    Ms. Lofgren. Thank you for your testimony.
    The audience is reminded not to engage in displays of 
enthusiasm for any of the witnesses, either in this panel or 
the next.
    Now is the time for Members of the Committee to have an 
opportunity to question the witnesses. And I will turn first to 
the Chairman of the Constitution Subcommittee, Congressman 
Nadler.
    Mr. Nadler. I thank the Chairwoman.
    Let me ask Mr. Mora, you said that one of the two black 
SUVs that stopped you and your dad pulled in front of your 
truck and the other followed behind. Did you know who was in 
those SUVs? Did you know they were police cars? Did you know 
who was in the cars?
    Mr. Mora. Did I know who was in those vehicles?
    Mr. Nadler. Yes.
    Mr. Mora. I know they were sheriffs because on the side of 
the vehicle it said ``Sheriff.''
    Mr. Nadler. Oh, it said ``Sheriff.''
    Mr. Mora. Yes.
    Mr. Nadler. And when your dad told the deputies he was 
going to work at HMI, did the deputies tell him or you what 
they were doing there?
    Mr. Mora. What was that?
    Mr. Nadler. When your father told the deputies that he was 
going to work at HMI, the company, did the deputies tell him or 
you why they were going to be at HMI?
    Mr. Mora. No.
    Mr. Nadler. And when they told you and your dad to get out 
of the car and they patted you down and handcuffed you, did 
they explain why they were doing that?
    Mr. Mora. No, they did not.
    Mr. Nadler. When you saw the deputy with big guns and ski 
masks over their faces at HMI, what did you think was going on?
    Mr. Mora. I did not know.
    Mr. Nadler. And how long were you and your father held 
there?
    Mr. Mora. How long? Three, 3 hours.
    Mr. Nadler. Three hours. And what is your impression of the 
police after what happened to you and your dad that day?
    Mr. Mora. What was that again?
    Mr. Nadler. What is your impression of the police after 
what happened to you and your dad that day? Do you think more 
of them, less of them? Do you fear them? Do you respect them? 
How has this affected your thoughts about the police in 
general?
    Mr. Mora. The police in general? Well, look, one thing I 
just want them to know is to treat us equally, you know. 
Because we are here to work, we are here to work, and we are 
not here to do anybody wrong, you know. We are just here 
working for our families.
    Mr. Nadler. Okay. Thank you.
    Mr. Ramirez, in testimony before a different Committee of 
this House last month, Frederick County Sheriff Charles Jenkins 
claimed that, and I quote from his testimony, ``There has been 
absolutely no complaints of profiling or discrimination based 
on ethnicity,'' close quote, since Frederick County began 
participating in the 287(g) program. Yet your testimony 
describes a number of instances where Frederick County 
Sheriff's office appears to have stopped, integrated, ticketed, 
or arrested Latinos, U.S. citizens, as well as legal and 
undocumented immigrants, seemingly based solely on their 
appearance.
    Why do you think that no formal complaints have been filed 
against the Sheriff's office?
    Mr. Ramirez. They think we don't report any crime because 
we are afraid. We are a target, like I said. And sometimes 
people, they report a crime and they are taken away, even the 
brother and father----
    Mr. Nadler. What do you mean they are taken away?
    Mr. Ramirez. They are taken to jail.
    Mr. Nadler. For the crime of reporting a crime?
    Mr. Ramirez. Yeah, for reporting a crime. They don't go and 
target the crime; they come in asking for IDs, green cards, and 
humiliating us like we are criminals, like we are the only bad 
people in town.
    Mr. Nadler. So you are saying that there were no formal 
complaints filed against the sheriff's office because of fear?
    Mr. Ramirez. Yeah. There is a big fear.
    Mr. Nadler. The sheriff also asserts that the program has 
not harmed police-immigrant community relations and has not 
created fear or distrust of law enforcement. Would you comment 
on that statement by the sheriff?
    Mr. Ramirez. Excuse me?
    Mr. Nadler. The sheriff testified that the 287(g) program, 
quote, ``has not harmed police-immigrant community relations 
and has not created fear or distrust of law enforcement,'' 
unquote.
    Could you comment on his statement? Is it true? Is it 
untrue?
    Mr. Ramirez. Of course it has had no affect because there 
is no relation to begin with.
    Mr. Nadler. It is not true, then.
    Mr. Ramirez. It is not true. There is no relation. I 
offered my hand many times to work with him. And that is not 
the first time I do that with the police. I have worked with 
them before.
    Mr. Nadler. Now, he also said that any existing fear or 
distrust of law enforcement is generally cultural-based, as 
most countries where immigrants originate from do have corrupt 
governments, corrupt and abusive law enforcement, which is all 
they have been exposed to in their lives.
    In other words, he is saying that if there is distrust or 
fear of law enforcement in Frederick County on the part of 
immigrants, it is because the countries they come from have 
corrupt police departments; it is not because of the wonderful 
sheriff's office in Frederick County.
    Would you comment on that?
    Mr. Ramirez. You know, when we come to this country, we are 
stereotyped. They think we come not from another country, we 
come from trash cans. We don't believe in anything. People like 
me, we live in the laws from the day we are born. I am not 
afraid of laws. I am not afraid of rules. I believe in laws.
    And to be afraid of the sheriff, of the police, since 2 
years ago has been increasing very badly, because when we call 
the police, the problem is not solved.
    Ms. Lofgren. I am going to interrupt. The gentleman has 
asked unanimous consent for an additional minute and is granted 
an additional minute.
    Mr. Nadler. Thank you.
    So, in other words, your testimony is that it is not 
culturally based?
    Mr. Ramirez. It is a culture that is creating right now. We 
are afraid to call--I changed, even as a citizen, and friends, 
residents, people I have known for a long time. We have changed 
everything. Our life is different now.
    Mr. Nadler. I hear that. But, in other words, you are 
saying that when the sheriff says that if there is fear of his 
department it is because of what happened abroad or in other 
countries, not because of the action of his department, that is 
not correct.
    Mr. Ramirez. That is not correct.
    Mr. Nadler. Okay.
    Mr. Ramirez. And I will give you one example, quickly, an 
example. I know of friends, they were walking in the street, 
and some guy approached them and asked for money. And he said, 
``If you don't give me the money, I will call the police and 
tell them you are selling drugs.'' And it is not just once, 
many times.
    Mr. Nadler. Thank you.
    I have one more question for you before the time expires. 
You testified that, when the police stopped Latinos, they often 
ask everyone in the car for passports or other identification 
cards, no matter the reason why the car was stopped.
    Mr. Ramirez. Yes.
    Mr. Nadler. What do they do--now, let me just say, if a car 
is stopped for a traffic violation, there is absolutely no 
legal justification for asking for any kind of ID or anything 
else from anyone other than the driver. The driver you can ask 
for license and registration, but have you absolutely no legal 
right to ask anybody else for anything.
    What happens if the other passengers in the car, not the 
driver, do not have, in the judgment of the officer, adequate 
ID or whatever?
    Mr. Ramirez. They are taken to jail, and they are 
processed. And I had a friend who is a citizen, and he was 
driving on Waverly Drive around Frederick, of course, and they 
stopped him because he was driving very slow. And he was taken 
to jail, and he said, I am a citizen. And after almost an hour, 
he proved he was citizen. He never got a ticket, he never got a 
warning.
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Nadler. Thank you very much.
    Ms. Lofgren. And we do want to recognize the Ranking 
Member, Mr. King, for his opportunity to question the 
witnesses.
    Mr. King. Thank you, Madam Chair.
    And I thank all the witnesses for your testimony.
    I sit in this Committee now, it is my seventh year, and I 
am trying to remember when I felt so uneasy, sitting up here 
listening to testimony. And I think I am seeing the embodiment 
of a great big problem we have in this country. And the result 
of it is the loss of lives, the loss of innocent human lives.
    And I have listened to Professor Tranchant's testimony. You 
have to know that he is here to tell you today that if we had 
enforced local immigration law his daughter would still be 
alive. Tessa and Ali would still be alive. And that is true for 
hundreds and perhaps thousands of Americans that go about their 
lives every day seeking just to make this world a better place.
    And you are pressing this Committee, and the message that I 
get from you is that we shouldn't enforce immigration law at a 
local level because there are some examples of discrimination 
that are there, at least that you testify to. And I don't argue 
that it never happens.
    But I would ask you, can you look at this on balance? Can 
you see the difference between the plea that you have to this 
Committee and the plea that Mr. Tranchant has to this 
Committee? Can you look him in the eye and say, we should have 
passed everybody over and your daughter would still be alive 
anyway? I don't think you can do that.
    And I don't know how to express to you that the comparison 
of what looks like an inconvenience to either one of you is 
compared to the very sacred life of this man's daughter. And 
you are on the same panel.
    What do you have to say to Mr. Tranchant, not to me, Mr. 
Ramirez?
    Mr. Ramirez. You know, I am an immigrant for 21 years here, 
I am a citizen, and I never killed nobody. Alcohol is sold to 
everybody--legals, non-legals, Irish, Italian, German, 
everybody. And I feel bad because I know what it is like to 
lose somebody. And I feel bad, too, when a father or a mother 
is taken away.
    And I understand, and that is the reason I am here, to be 
part of the solution. I am not a problem. I am not a problem. I 
am here for the solution.
    I can see here in his face, in the same way he feels 
sorrow, I feel sorrow too. Because we are in the middle of the 
things that are going on. We need your help. We need the 
Federal--we need the Constitution to lead us.
    Immigrants are not new in the United States. This is a 
topic for hundreds of years. And what I learned from the United 
States, they need the solutions.
    Mr. King. Mr. Ramirez----
    Mr. Ramirez [continuing]. For one drunk person. I am 
inviting you to downtown Frederick----
    Mr. King. I appreciate your point, and my clock is ticking, 
and so pardon me if I have to interrupt, but there is another 
point that needs to come.
    Mr. Ramirez. I am not a criminal. Please. I am not a 
criminal.
    Mr. King. And I think, in your head and in your heart, you 
came here to contribute. And I don't disagree with that 
sentiment that you have expressed, Mr. Ramirez. Please, believe 
me, I do not. I compare the difference between the plea that I 
am hearing from you and Mr. Mora and the plea that I am hearing 
from Professor Tranchant. And one screams out to me and says 
that the foundation of this country is the rule of law. The 
very central pillar of American exceptionalism is the rule of 
law. And the argument here is that there are some exceptions to 
at least allegations that there has been discrimination.
    We reject discrimination, all of us on this panel. But yet, 
the law enforcement people need to do their job. Especially, 
local law enforcement need to cooperate with Federal 
immigration law enforcement. And so the message that I am 
hearing out of here isn't that we should continue with that and 
try to improve it. I am hearing a message that we should 
perhaps end this 287(g) program, and I reject that. I am a 
solid supporter of the 287(g) program.
    And I would like to turn to Professor Tranchant and ask 
you, is there a statement that you didn't have an opportunity 
to make to this Committee?
    Mr. Tranchant. Yes, sir. Thank you.
    I am a son of an immigrant. She came from northern Ireland, 
and I helped her study for her immigration exam. And my grand-
pere is a Frenchman, and people used to discriminate against me 
because of my big nose, because he is French.
    But I have to tell you that I don't want undesirable people 
in America, personally. I don't want drunks in America. I am 
not going to say that, ``Well, everybody gets drunk and people 
kill people because they are drunk.'' I will tell you what, if 
we have an opportunity not to have them here in this country 
and deport them, we should do that. We want desirable people 
here. This is America. We didn't want them killing you.
    So what this law does, it takes undesirable people and puts 
them at the back of the immigration line, which is where they 
should be. And I think most people feel that way. We don't like 
drunks. And if you are a drunk here in the country, go home. If 
you are a murderer, go home.
    Mr. King. Thank you, Mr. Tranchant and all of the 
witnesses.
    And I yield back.
    Ms. Lofgren. The gentleman yields back.
    I would turn now to the gentlelady from Texas, Ms. Sheila 
Jackson Lee, for her opportunity to question the witnesses.
    Ms. Jackson Lee. Thank you very much, Madam Chair.
    And I am so glad that as I was coming in--and I beg the 
indulgence of the witnesses. I just came from a Homeland 
Security Committee hearing.
    And so I want to say to Professor Tranchant that you are 
looking at the person who, in totality, agrees with you, that 
we have to do our job.
    Mr. Tranchant. Right.
    Ms. Jackson Lee. And I want to say to you that I, frankly, 
believe that homeland security, immigration issues is a Federal 
issue. We have to do a number of things: one, put in place 
Federal laws that lay the parameters out. We have to 
comprehensively fix the confusion in immigration laws. We have 
to let a citizen like yourself know what they are. And then, of 
course--let me apologize for not appropriately starting with 
the most important remark, which is my sympathy and concern. No 
parent could ever fathom what you have gone through.
    And you said something very important: We don't need drunks 
on the street. I am appalled that this was an offender, whether 
it be an undocumented citizen or someone else, that was on the 
street more than once after having incurred the ridiculous 
action of driving while drunk. I am, just for your own 
information, rabidly supportive of cutting Federal funds for 
States that don't have stronger drunk-driving laws. That 
doesn't bring back the life.
    What I would have wanted to have seen is the fact that, 
once picked up in the normal process of an offense, that the 
Federal officials needed to come and do their job. I want to 
put on the record, they needed to do their job. They needed to 
be aware of individuals in jail. And you would have had, if we 
could just turn the clock back, at least had relief that the 
Federal Government was doing its job.
    So, please, as I pose questions to Mr. Ramirez, I don't 
want you to doubt in any way both the sympathy and the 
frustration that I face. I Chair a Subcommittee on Homeland 
Security; the Chairwoman is on that Committee. And we need to 
ramp it up so that there are offices that can function in 
conjunction with jails and incarcerated persons across America. 
I think when I go to Mr. Ramirez, if you can listen to my line 
of questioning. And I, Mr.----
    Mr. Tranchant. Tranchant.
    Ms. Jackson Lee. I want to make sure, because it is French 
to me. I want to say ``Tranchant.'' Let me just pose a quick 
question to you.
    287(g) represents sort of a law that throws the burden--and 
it came out of frustration--on local government. I don't think 
it is perfect, because what it does is it says that individuals 
that are not operating under it are sanctuary cities. I come 
from the city of Houston. Let me go on record and say, Houston 
is not a sanctuary city. We have too much diverse political 
perspectives to be a sanctuary city. But we are a big city, so 
obviously we cannot rally up every one. We need Federal 
support.
    Would enhanced resources give you comfort, as well, in the 
immigration process through the Federal Government--we call 
these folk ICE officers--where they are surveying and working 
with the jail, would that give you comfort?
    And would it also give you comfort--because you come from 
North Carolina. My daughter went to UNC, so I know the influx 
of diversity and immigrants in your community. Would it also 
help--and I know that you have seen some of them there; they 
are there working in various capacities--that we have some laws 
that you could understand, that people who need to be deported 
were deported and those who were here to work could stay under 
some laws that were appropriate? Would that be helpful to you, 
in reflection even in this tragedy that you are facing?
    Mr. Tranchant. Well, ma'am, I can't--I don't have as broad 
a solution base that you have. And the thing about allowing 
them to stay and work, I can't make statements to that because 
I don't know--you know, I want to split the hairs on that one. 
I want to----
    Ms. Jackson Lee. You need more facts?
    Mr. Tranchant. Yeah. But I tell you that what Homeland 
Security is doing with allowing local law enforcement to have 
integrated databases from some of the banditos they have on 
their lists, so that these law enforcement officers can run an 
ID check, a fingerprint, and the guy or woman who has been 
going from State to State--and, by the way, we don't border 
Mexico in Virginia.
    Ms. Jackson Lee. Was it Virginia? I am sorry. I thought it 
was North Carolina.
    Mr. Tranchant. But they guy who is going from State to 
State committing crimes----
    Ms. Jackson Lee. And I want to get another question in. I 
think your answer is you have one perspective, and----
    Mr. Tranchant. Right.
    Ms. Jackson Lee [continuing]. Let me try to get this 
question in, Madam Chair, if I might, to Mr. Ramirez.
    Mr. Ramirez----
    Ms. Lofgren. The gentlelady is granted 1 additional minute.
    Ms. Jackson Lee. I thank the Chairwoman.
    Mr. Ramirez, I got the gist of Mr. Tranchant's point of 
view, but my point is, if I can ask this question, you have 
suffered civil rights abuse because you are a citizen, and the 
confusion of utilizing laws in the hands of local officers, who 
don't have a component of sensitivity, means that the 
confrontations that you have had have been unnecessary. So it, 
again, comes back to the Federal Government; we are not doing 
our job.
    Give me your suggestion--I recognize the tragedy of your 
fellow witness here--on how we solve this. I want what has 
happened to you to you to stop.
    Mr. Ramirez?
    And my apologies to you for those actions against you 
inasmuch as you have been innocent.
    Mr. Ramirez. The thing I feel when I am stopped by the 
police is the stereotypes they have of Latinos, people looking 
like me. You know, they see the bad part of us--drinkers, 
robbers, rapists, killers. But they don't see the good things. 
We work very hard. We have made more rich this country.
    I can give you an example in Frederick. For our work, a lot 
of people are richer because we work for them. We make their 
companies better and faster. I work in safety in construction, 
and I can give you many examples. But the point is, we are 
human beings. There is no difference from my skin and your 
skin, my origin or your origin. We are in pain here together. 
And there is humiliation after we offer, after we work, after 
we are hard to----
    Ms. Lofgren. The gentlelady's time has expired.
    Ms. Jackson Lee. I thank you.
    We need a fix on this system, and it is broken.
    I thank you, and I yield back.
    Ms. Lofgren. I recognize the gentleman from Mississippi, 
Mr. Harper, for his opportunity to ask questions.
    Mr. Harper. Thank you, Madam Chair.
    This is, to me, a very--in one regard, you know, we hear 
about needing to pass new immigration laws, to maybe consider 
repealing certain laws and changing those immigration laws, but 
we have not really enforced our existing laws. We should take 
steps to enforce the existing laws on the books fully and then 
see where we are after that.
    I have to say that, while you may have complaints about the 
sheriff in Arizona or other locations, you know, as a former 
prosecutor, I can tell you that I am encouraged when I see 
folks uphold the law.
    And, you know, America is a Nation of immigrants. You know, 
we have people who come from all over the world here. And those 
folks that have come in that want to be in this country and 
have an opportunity to live and reach the American dream, more 
power to them. And I commend them. And those that come into 
this law the proper way and the legal way, that is how it is 
supposed to be done.
    We cannot, as a Nation, say those who have come into this 
country and from the very beginning broken our laws--how do we 
say to those who wait years sometimes to come into the country 
the legal and proper way that, ``You keep waiting. Those of you 
who came in breaking our laws, it is okay to stay.'' So, you 
know, amnesty that we discuss or those things that we talk 
about is just something that is not going to be acceptable.
    This is a matter of national security. We cannot have 
people coming into this country that we don't know who they 
are. And that is a thing that we have to continue to look at.
    Professor Tranchant, our heart goes out to you.
    Mr. Tranchant. Thank you.
    Mr. Harper. Do you believe that if the laws had been 
enforced that your daughter would still be alive?
    Mr. Tranchant. Undoubtedly. He wouldn't be there at that 
moment. The causality would be unnecessary.
    Mr. Harper. Okay.
    With that, Madam Chair, I yield back the balance of my time 
to Steve.
    Ms. Lofgren. The gentleman yields the remainder of his time 
to Mr. King.
    Mr. King. Thank you, Madam Chair.
    To the witnesses, I look at some of the data that comes out 
of these counties we are talking about, and a curious thing 
comes to mind.
    Mr. Mora, as I read your testimony this morning, your 
father has been in this country since the 1960's and has had a 
green card, I think, since 1976 in your testimony. Has your 
father become a citizen yet?
    Mr. Mora. Yes.
    Mr. King. When was that?
    Mr. Mora. I am not sure.
    Mr. King. Some time ago, though? That is an omission in 
your written testimony. I think it is important that the panel 
understand that your father has taken that step to citizenship. 
And I congratulate and applaud him for that.
    And I would ask, as part of that citizenship that he 
studied in order to pass the citizenship test, and this thing 
we have talked about, at least Mr. Harper and I, about the rule 
of law, I am looking at the data that shows that the Maricopa 
County Sheriff's Department had nearly 80 warrants for 
individuals at the workplace that day, and, of that, 39 were 
arrested. So it would be, I think, evident that your father was 
working with illegal immigrants on a daily basis.
    Did he ever talk to you about the rule of law and about 
immigration law? Can you tell me that--I mean, would you agree 
or disagree with me that a citizen has a responsibility to see 
that the law is enforced as well as local law enforcement?
    Mr. Mora. Yes.
    Mr. King. Did he ever say to you that he would be willing 
to participate and help out and support local law enforcement 
in enforcing immigration law?
    Mr. Mora. Can you repeat that for me, please?
    Mr. King. Yes. Did you father ever advise you, as a matter 
of being a good citizen, that one needed to, as a matter of 
citizenship, help cooperate in enforcing immigration law in the 
United States?
    Mr. Mora. For me, he wanted me to be respectfully to 
everybody, or be respectful.
    Mr. King. Whether or not they were here legally or 
illegally?
    Mr. Mora. Yes.
    Mr. King. And so I am going to take that that you aren't 
saying ``yes'' to that question. So I will ask this another way 
then. And you have talked about what I think you have 
emphasized as an embarrassment that day in Maricopa County, and 
you have named a couple of incidents of embarrassment there.
    Could you, for me and for this panel and for especially 
Professor Tranchant, can you express to me the difference 
between the embarrassment that you endured and the loss of his 
daughter? And might, if it had been, say, your sister or 
girlfriend or maybe your new child that was a victim of a crime 
like this, might you be speaking on the same side of the 
argument as Professor Tranchant instead of the side you are on 
today?
    Mr. Mora. Okay, can you simplify that for me, please?
    Mr. King. Yes. If it had been a family member who had been 
killed by an illegal who would have otherwise not been in this 
country if the law had been enforced, if that had been your 
close family member, your sister for example, would you perhaps 
change your mind on the reason for your testimony here today 
and support the rule of law?
    Mr. Mora. No, I would actually want the local police to 
actually----
    Mr. King. Let them go.
    Mr. Mora [continuing]. Enforce. No, enforce it. Be smart 
about it and enforce it. And, obviously, they weren't enforcing 
it.
    And I apologize, you know, I am sorry, sorry for your loss.
    But for them to enforce their law, the ones they are 
supposed to be following.
    Mr. King. You are not telling me that your embarrassment 
trumps the daughter's life?
    Mr. Mora. No.
    Mr. King. Then you understand the priority, and I think you 
would agree with Mr. Tranchant.
    I thank you, and I yield back.
    Ms. Lofgren. The gentleman's time expired.
    I would turn now to the gentleman from Illinois, Mr. 
Gutierrez, for his opportunity to question the witnesses.
    Mr. Gutierrez. Well, first of all, thank you, Madam 
Chairwoman and Mr. Nadler.
    And I thank the witness for their testimony here today.
    I think we are missing the point of the testimony here this 
morning. And just so that we have it very clear, no one has 
ever stipulated, promoted laws that do not deport drunk people, 
that do not deport rapists and murderers.
    Now, part of the problem is that, it has been said here by 
some of my colleagues on the other side, enforce the law. Let 
me just suggest to everybody, this Congress and the Government 
of the United States has not shown the political will nor 
committed the requisite resources to enforce our immigration 
laws. And I hear no one here--no one here--who has come with a 
solution of enforcing and putting the requisite resources in 
order to enforce the immigration laws of our Nation.
    And the only way that you really do that is by having 
comprehensive immigration reform. You either sweep millions and 
millions of people off the streets of the United States of 
America--which no one has ever proposed. So it is always a 
little disingenuous to me when people say, ``If we would only 
enforce the laws.'' Well, we are here every day, and I haven't 
heard the proposal, and I haven't see the political will to do 
it.
    What I have seen, unfortunately, is the will to target and 
to victimize and to scapegoat a community of people. I have 
seen that readily here in the Congress of the United States. 
And it makes for great political points, but it doesn't resolve 
the problem and would not have saved your daughter's life.
    Now, under comprehensive immigration reform, we would have 
an opportunity to tell people--because here is what happens, 
fundamentally: Those drunkards and those rapists and those 
murderers do most of their drunkenness, their murdering and 
their raping in the very immigrant community in which they 
reside. And you want to know who wants to get rid of them? The 
very immigrant community that lives there. But they cannot call 
the police.
    And we are going to be entering in a minute--we have cases 
of women who are abused by some of these undocumented drunkards 
who abuse these women, and when the police are called, they 
deport the victim of the crime and not the perpetrator of the 
crime.
    So if they live--and they live among us, especially in the 
immigrant community--we need to have that relationship with the 
police that allows the community to defend itself and to rid 
our society of them.
    No one here, and I agree with Mr. Tranchant, they should go 
home. Better than go home, we should drive them home, we should 
ship them home, we should use any resources to make sure that 
they are not here.
    There are a community of people in this country, 
foreigners; not all foreigners come here really as immigrants. 
Most people, as probably Mr. Tranchant has already expressed to 
us, come here as immigrants to work, to sweat and to toil, to 
make their own future better, and by doing so, enriching us 
all. And then we have foreigners who come here as terrorists to 
bomb our buildings, to come here to do harm. They are 
foreigners. I don't think we quite make them immigrants, 
because I think that that would be kind of looking pretty badly 
on our tradition of immigrants that come here.
    So crime and immigration is an old story. The Irish were 
the dirty filthy criminal element that was coming to undermine 
America. Well, they gave us a President Kennedy.
    Mr. Tranchant. They gave me me.
    Mr. Gutierrez. Thank you. You know, if it was the turn of 
the century, we could read in The New York Times ``only by the 
rule of law could we help to control these people''--referring 
to the Italians. You know, they were wrong about the Irish, 
they were wrong about the Italians, to tarnish them all because 
of a few. And they are wrong today to tarnish a whole immigrant 
community because of the actions of a few--a few that I wish to 
get rid of.
    And let me just end, because I don't want to take an extra 
minute which has been given to everybody. I mean, the gentleman 
from Iowa suggests to us and suggests to Mr. Mora that he 
should be checking the immigration status of people.
    Let me just tell you, that really is shocking to me. Am I 
supposed to check, when I go to church, those who sit in the 
pews with me in church and check their immigration status? Am I 
supposed to go and shop and check their immigration status? 
Every day we walk into hotel rooms across this country, we eat 
grapes, we eat fruit, we eat meats that are cut in meatpacking 
plants. And we all know who has done that work: undocumented 
workers here in this country.
    I would ask for 15 additional seconds.
    Ms. Lofgren. The gentleman is granted, by unanimous 
consent, an additional 15 seconds.
    Mr. Gutierrez. We all benefit. And we show a blind eye--a 
blind eye, Mr. Tranchant, that I share with you, as a father of 
two daughters. Your testimony is to me--I thank you for 
bringing your testimony here. But I suggest to you that if we 
refer to them simply as ``banditos,'' as you have referred in 
your testimony, it does not help to solve the problem. I want 
no more daughters like yours killed in our country. I want to 
work toward a solution. And I thank you for your testimony.
    Ms. Lofgren. The gentleman's time has expired.
    I would recognize the gentlelady from California, Ms. 
Waters, for her opportunity to question.
    Ms. Waters. Thank you very much, Madam Chairwoman. And I am 
sorry that I have not been able to be here for the entire 
hearing. But I want to come, first of all, to honor the work 
that you have done, the hearings you have held, your committed 
work to deal with one of the biggest issues in our country, and 
your attempt to forge the public policy that is going to be 
necessary to recognize that we have to have immigration reform 
in a comprehensive way.
    Ms. Lofgren. Thank you, madam.
    Ms. Waters. And also I want to thank Mr. Gutierrez for the 
leadership that he has provided on this issue all over the 
country; his courage, his willingness to get on the point on 
this issue; to tell the truth, to recognize where the problems 
are, and to call upon immigrants to share in the solving of 
this problem and exercising certain responsibilities; and to 
educate all of us about the part of an immigrant population, 
their contributions to our society, and how we cannot solve 
this simply by talking about deportation of everybody. That is 
not going to happen. We all know that.
    And so I want to say to the panel, thank you for being here 
today. Thank you for coming here to share your experiences. I 
cannot imagine what it is like to come here and talk about the 
loss of a child in the way that you are doing today, and 
describing what happened to these young girls who were innocent 
and simply sitting at a stop light and to have been killed in 
that way.
    You have my greatest sympathy. And I certainly share in 
your sorrow. And I am hopeful that the law works in ways that 
no matter whether you are an immigrant or not, that if you have 
broken the law, if you have been arrested for drunk driving, 
that we do a better job of tracking, punishing, and keeping up 
with people who put us all at risk. So thank you.
    For others who are here today with professional testimony 
based on your knowledge, your experience, your intellect, to 
the victims who are here today to talk with us, Mr. Julio Cesar 
Mora, about what happened, let me just say this: that many of 
us are committed to comprehensive reform. We recognize that 
there are a lot of things to be resolved. We have to resolve 
the fact that there are many people who have been in this 
country, contributed for many years, and that we have to come 
up with a way of reconciling the length of time that they have 
been here and their being able to get citizenship.
    We have to deal with the employers, we have to deal with 
the criminals, we have to deal with every aspect of this. And 
it is not going to go away as a huge problem until we recognize 
that we have to come up with the kind the public policy that 
deals with the reality of the presence of immigrants who make 
up a significant part of this country, providing services, 
providing jobs, and all of that.
    So I am just here to say I am committed--understanding all 
of the problems, understanding the violation of civil rights, 
understanding the criminal elements, understanding the role 
that employers play, who are the beneficiaries of the work 
without, wanting to engage in a real way in the problem, pay 
the real wages and all of that.
    And I am going to work, under the leadership of our Chair 
and Mr. Gutierrez and others who are sincerely dedicated to 
this proposition, that we can work it out to do that. I simply 
wanted to come and say that, despite the fact that I have to 
run back and forth with some other meetings. Thank you very 
much.
    Mr. Gutierrez. Will the gentlelady yield?
    Ms. Waters. Yes, I will yield.
    Mr. Gutierrez. Number one, thank you. And I also want to 
thank the Chairwoman for her work on this issue. And just to 
add, people die; a lot of people are dying because of our 
immigration system, exploited at work, children left behind. 
Hate crimes in the United States, just check the FBI's 
statistics, hate crimes are rising in the United States against 
people of Hispanic origin. And people are being murdered on our 
streets simply because of the color of their skin. We want to 
end the unfortunate death of your daughter and the unfortunate 
deaths of many others.
    Ms. Lofgren. We have been joined by the Chair of the 
Judiciary Committee. Mr. Conyers, do you wish to question the 
panel?
    Mr. Conyers. I am not sure which questions I would like to 
ask now because, unfortunately, I was pulled out of the 
hearing. But I know that I am working with my two friends on 
the other side, the gentleman from Mississippi and Steve King, 
to try to put not just a human face on this but also we are in 
the process of sorting out the law. The truth of the matter is, 
we don't have an anti--the second panel is coming up, so we 
will have Professor Harris here. We don't have an anti-profile 
national statute. We have a lot of indication that everybody is 
in agreement that racial profiling per se is an abomination.
    I was just talking with Ted Poe earlier, and my ongoing 
discussions with the Ranking Member--and I haven't talked with 
the gentleman from Mississippi yet, but the relationship 
between the government, the Federal Government and local law 
enforcement is not as clearly cut as reading the Constitution 
or the Federal Criminal Code or the State statutes.
    I referenced President Bush's first Inaugural Address, 
Attorney General Ashcroft, all have made statements about this. 
And so what we are trying to do is make it real and make it 
understanding.
    I think this is a matter that this hearing, with two 
Subcommittees of Judiciary, are putting a face on this. We are 
pulling together a record. Of course, there are thousands of 
other instances that will not likely go into the Judiciary 
Committee's recording of how we handle this, but we do have an 
obligation to move this as far forward and to try to commit to 
understanding how we separate out the legal questions and just 
the plain, ordinary, common decency questions.
    And I think I have been told that we have accomplished this 
with the first panel. The people looking at this, the people 
reading our transcript, all of this is going to be important in 
terms of how we finally address this question.
    But there is a peripheral problem that occurs, which is 
that the FBI, when they pick up somebody, they put them into 
this huge database--I don't know if it is the terrorist 
watchlist or if it is just the bank of information that 
everybody goes in that gets picked up--NCIC. NCIC gets their 
hands on a person that sometimes--has this come up with any of 
the witnesses?
    Ms. Lofgren. I think it is going to be addressed on the 
second panel.
    Mr. Conyers. But you call the police as a citizen, you end 
up getting put in the database, and then your family gets 
busted, and then people start getting shipped out as a result 
of people working with the police. And this creates a very 
serious problem, and we will be looking toward expanding that.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I would like to take just a minute to ask you, Professor 
Weissman, some questions.
    Clearly--well, I won't say clearly, but I think there is 
pretty unanimous agreement that individuals who have been 
convicted of a serious crime and who are not U.S. citizens 
should be deported, apprehended and deported, as provided for 
in law. Unfortunately, even though we have directed ICE to do 
that repeatedly, given them a huge increase in funding to do 
that--there is no way the local police can do that, that is a 
Federal Government function. And no matter how many times we 
tell them to go to States and localities to pick up individuals 
who have been convicted of serious offenses after their 
sentences have been served, they don't actually perform that 
function in a reliable way. So that is something I think that 
needs to be stated.
    But I think what there is disagreement about is having 
noted that we all agree--or I think all of us do agree on 
that--whether it is appropriate to round up everybody in sight 
because of their race, which it sounds like is happening in 
North Carolina.
    I was struck by your testimony on page 7 that the majority 
of the undocumented immigrants in the 287(g) program were 
caught up--I think you said 83 percent of the immigrants 
arrested by Gaston County were charged with traffic violations; 
and also, talking about checkpoints in front of churches that 
were frequented by Latinos because a Mass was in Spanish.
    Do you think that is a lawful use or a proper use of 
287(g)?
    Ms. Weissman. I don't think it is a lawful use. I think 
that when we when we talk about 287(g) and upholding the law, 
there are some standards. The statute requires that local law 
enforcement officers know Federal law. And so some of these 
blatant aspects of racial profiling are contrary to Federal 
law, our Constitution, case law, State law as well.
    So I think not only is it a contravention of the law, but 
it actually undermines what the ultimate purpose might have 
been about 287(g). And that is to say that we are pulling local 
law enforcement resources into a program and really away from 
their primary function.
    I am concerned that--for example, DUI is something that the 
local law enforcement must first and foremost handle. And if 
they are now swept into checkpoints in front of churches and 
the flea market where families shop on Saturday and traffic 
offenses and filling out Federal forms and requesting 
detainers, they will not do their job. Their job is local law 
enforcement.
    I am concerned that the failure to uphold the way this 
program should be operated in terms of the four corners of the 
contracts--we haven't talked about this today--this program is 
supposed to be operated according to a contract with local law 
enforcement and Federal agencies, and there has been very 
little compliance with that contract. We know that because of 
the GAO study that was submitted last month.
    So we have a program that has been somewhat derailed, and 
it doesn't allow local law enforcement to do their task.
    Ms. Lofgren. Let me ask you, for example--not that this has 
always happened, but it is by directive supposed to happen. 
When ICE, the Federal agency, enters into an enforcement area 
and they find parents--they are supposed to determine that 
there is somebody to look after minor children before they 
remove the parents. And I was struck by your testimony about an 
incident in June in Alamance County. Can you describe that?
    Ms. Weissman. Yes. There was a vehicle that was pulled 
over, a woman and a man and children in the back of the car, 
and it was late at night. It was a mother and her children, and 
a male passenger who was helping her drive up to Maryland, and 
they were going to see the children's father. She was pulled 
over. It was determined that she was not documented. Although 
she told the law enforcement officer that the male passenger 
was not a relative and not suitable to be the caretaker for the 
children, the police left the children with this person, who 
ultimately left the car, and the children were left on the side 
of the road for a number of hours.
    Ms. Lofgren. Well, that is something that--I mean, 
certainly no one would be for that. But that directly 
contradicts what ICE is supposed to do. And it sounds like the 
local police either haven't been trained or didn't get the memo 
about the protocols. I see--and I don't want to take advantage, 
since I am Chairing--that my time has expired. So I am going to 
stop these questions. And we do have a second panel. So I will 
thank every one of you for being here today, for your 
testimony.
    I will note that the Committee record is open for 5 days. 
We may have additional questions for you, and if we do, we will 
send them to you. And if that should occur, we will request 
that you respond to the written questions.
    And again, thank you, each one of you, very much for your 
presence here today.
    As you are leaving, I will begin the introduction of our 
second panel as they move forward.
    First, I am pleased to welcome Professor David Harris. 
Professor Harris studies, writes and teaches at the University 
of Pittsburgh about police behavior and regulations, law 
enforcement, and national security issues in the law. He has 
testified before the United States Senate and many State 
legislative bodies on profiling and related issues.
    In 1996, Professor Harris served as a member of the Civil 
Liberties Advisory Board to the White House Commission on 
Aviation Safety and Security. Before he began teaching in 1990, 
Professor Harris was a public defender in the Washington, DC 
area, a litigator at a law firm in Philadelphia, and a law 
clerk to Federal Judge Walter K. Stapleton in Wilmington, DE.
    Next, I am pleased to introduce Hubert Williams. Mr. 
Williams is President of the Police Foundation, a research-
oriented think-tank that provides technical assistance to local 
police departments to enhance the quality of public safety 
within the context of America's constitutional standards and 
democratic values.
    Mr. Williams began his law enforcement career as a police 
officer in Newark, New Jersey, rising through the ranks to 
serve as Director of Police for 11 years. Mr. Williams received 
his B.S. From the John Jay College of Criminal Justice, the 
City University of New York, and was a Harvard Law School 
fellow. He received his juris doctorate from the Rutgers Law 
School. Mr. Williams is a member of the New Jersey Bar 
Association, and has been admitted to practice before the 
Supreme Court of the United States. He is founding president of 
the National Organization of Black Law Enforcement Executives, 
otherwise known as NOBLE, and serves on the advisory board of 
the National Committee on the Right to Counsel and the 
Constitution Project.
    He previously served on the Congressional Advisory Panel to 
Assess Domestic Response Capabilities for Terrorism Involving 
Weapons of Mass Destruction, and was a member of the Council on 
Foreign Relations Independent Task Force on Civil Liberties and 
National Security.
    Next, I would like to introduce Police Chief George Gascon. 
Police Chief Gascon took lead of the Mesa Police Department in 
August of 2006. During Chief Gascon's tenure, Mesa has 
experienced substantial crime reductions, increased officer 
productivity and greater community participation in policing 
matters.
    Chief Gascon is a U.S. Army veteran and an experienced 
police executive. He retired from the Los Angeles Police 
Department as the Assistant Chief Director of Operations. Chief 
George Gascon received his bachelor of arts degree in history 
from California State University at Long Beach, and his juris 
doctorate degree from Western State University College of Law.
    Finally, I would like to introduce Professor Kris Kobach. 
Professor Kobach served as Attorney General Ashcroft's chief 
advisor on immigration law and border security until July of 
2003 and has litigated a number of lawsuits in the field of 
immigration. He is a senior counsel at the Immigration Reform 
Law Institute, a Washington, D.C.-based legal advocacy 
organization that represents U.S. citizens in immigration-
related cases across the country. He also served as the Chair 
of the Kansas Republican Party from 2007 to 2009.
    Professor Kobach teaches constitutional law, immigration 
law, American legal history, and legislation at the University 
of Missouri-Kansas City School of Law. Professor Kobach 
received his bachelor of arts degree with the highest 
distinction from Harvard University in 1988 and was awarded the 
Marshall Scholarship.
    Mr. Kobach, I think it is only fair to inform you that last 
night the Committee received a letter from the Southern Poverty 
Law Center, as you know, one of the Nation's preeminent civil 
rights organizations. Without objection, I ask that the letter 
be made a part of the record.*
---------------------------------------------------------------------------
    *Note: See also letter from Southern Poverty Law Center to the 
Honorable John Conyers, dated April 8, 2009 on page 305 of this 
hearing.
---------------------------------------------------------------------------
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Ms. Lofgren. They have expressed concern that you are 
testifying in your capacity as a law professor rather than your 
role as legal counsel for the legal arm of the Federation for 
American Immigration Reform, and advise us that this is a job 
for which you have received at least $125,000 in payment.
    They also draw the Committee's attention to a donation from 
FAIR to your congressional campaign when you ran, and condemn 
FAIR for its ties to the White Nationalist Movement. And they 
have asked us not to take your testimony.
    We take their concerns seriously, and certainly we do 
respect the work that the SPLC has done against racial violence 
and police brutality as an inspiration, really, throughout the 
years.
    Ultimately, however--and I want to note this because it was 
an official request--we respect the right of theMinority to 
call their own witnesses. And so it is our opinion that the 
best response to this request is not to dis-invite you, but to 
hear what you have to say. And I just wanted to make clear that 
that was the determination that I have made as Chair, that you 
have a right to be heard.
    Mr. Kobach. May I just respond to that?
    Ms. Lofgren. You will have an opportunity to speak. We are 
going to have votes in about 40 minutes. All of you will have 
your full written statements made a part of our record. And as 
with the first panel, we will invite you to testify for 5 
minutes. We don't have a heavy hand on the gavel, but when the 
red light goes on, we would ask you to please wrap up.
    And we will begin first with Professor Harris.
    Mr. King. Madam Chair, just a colloquy inquiry, if you 
might.
    Ms. Lofgren. Certainly.
    Mr. King. I am a little off pace here, but I think I know 
what I heard. And I would inquire if that same approach would 
be used by the Chair if it happened to be a witness that had 
any association with MALDEF or LaRaza or any organization that 
might be viewed by people on the other side of the political 
aisle to be racist organizations.
    Ms. Lofgren. The gentleman is asking for an answer to a 
speculation which I am not prepared to answer. I would suggest 
that we go to the witnesses.
    I recognize Professor Harris for his 5 minutes of 
testimony.
    Mr. King. Thank you, Madam Chair.

 TESTIMONY OF DAVID A. HARRIS, PROFESSOR OF LAW, UNIVERSITY OF 
                    PITTSBURGH SCHOOL OF LAW

    Mr. Harris. Chairwoman Lofgren, Chairman Nadler, Ranking 
Member King, a great pleasure to be here with you today, and 
thank you for inviting me to testify.
    The use of local police agencies in immigration 
enforcement, whether under 287(g) or otherwise, is a profound 
mistake. Local police agencies are not adequately trained for 
it, shouldn't do it, it is not their job, and it hurts them.
    Two things happen when we get local police agencies 
involved in immigration enforcement. Number one, crime goes up 
because it does damage to the ability of the police department 
to work with the communities they need to work with to make the 
streets safe.
    Number two, some are inevitably, inexorably, pushed into 
racial profiling not because they are biased, not because they 
are bad people, but because they are untrained, unsupervised, 
unprepared, and they simply rely on what is easy to see.
    Let me explain the first point. Fifteen years ago, 20 years 
ago, we had the first United States police departments using 
community policing, and now it is ubiquitous. It has been a big 
part of why crime has fallen so dramatically over the last 15 
to 20 years. Community policing is, at bottom, about trust. It 
is about the sharing of responsibilities between police 
agencies and their communities, between the police and the 
people they serve, and it is all based on partnership, and 
partnership is based on trust.
    Now, I am not talking about personal relationships, though 
those are important. I am not talking about people's feelings, 
though those are important, too. I am talking about the kind of 
relationship that allows you, as a member of the community, to 
come into the police department and talk to them, to file 
complaints when necessary, to pass information to the police 
department when there are bad people in the neighborhood, 
people up to no good.
    To get the police and the community working together is the 
goal of community policing, and trust is the foundation of how 
that works. When you have trust, when you have a relationship, 
information passes back and forth, intelligence passes back and 
forth, and you get good, effective policing.
    When you have people who are on the local police department 
involved in immigration enforcement, that trust is broken. I 
think you heard that from the witnesses from the earlier panel. 
And that is where the trouble starts. When that trust is 
broken, when that trust is destroyed, the ability of the local 
police department is greatly affected to produce public safety 
because, as police chief after police chief that I have 
interviewed and talked to will tell you all over the country, 
``we cannot do it ourselves. We know we need the community, we 
need their support and help.'' And if people feel afraid to 
come forward and talk to the police about who is in their 
community, that is a breach of trust and that cuts off their 
information. If they feel afraid to come forward and report 
crimes they have witnessed, that deprives the police of the 
important information that they need in order to assure public 
safety. If they feel afraid to report crimes against 
themselves, as the domestic violence examples have so sharply 
suggested, what happens is the predators remain free on the 
street. And the predators prey on that community, but they 
don't stay in that community. They victimize everyone, all 
Americans. And because of that, crime goes up. And people who 
should be in jail, who should be locked up, are on the street 
all because people are afraid to come forward.
    So that is why the police should not get into this business 
if they are on the local level. This is a Federal job.
    When we talk about profiling--there has been a lot of 
discussion about that today--when you have local police 
enforcing immigration laws, immigration law is one of the most 
complex areas of the law that there are. It is so complex, it 
requires a great deal of expertise and study and years and 
years of experience to do it correctly.
    When we put our local men and women and our police forces 
into the position of enforcing immigration law, we are putting 
them into an untenable situation because they don't have the 
training, experience, or knowledge necessary to enforce that 
law. That isn't fair of us to ask them to do that. And what 
happens is that, as human beings, they inevitably fall back on 
what they can easily recognize--appearance. And it isn't 
because they are biased, it isn't because they are bad people, 
it is just because there is no other way to do what they are 
being asked to do. And because of that, profiling follows.
    And those police officers who we are putting in that 
position are going to get sued, they are going to have 
community problems. Their ability to enforce the law overall 
and to fulfill their core mission, which is to ensure public 
safety, is going to be damaged perhaps beyond repair.
    Thank you.
    Ms. Lofgren. Thank you very much, Professor.
    [The information referred to follows:]

                 Prepared Statement of David A. Harris

    I thank Subcommittee Chairs Lofgren and Nadler and Ranking Members 
King and Sensenbrenner for convening this important hearing today. The 
American people need to know that using state and local police forces 
for immigration enforcement raises significant public safety and civil 
rights issues that pose a danger to everyone.
    We now have a severely dysfunctional immigration system, in which 
problems have built up and compounded for years. But putting state and 
local police into the position of enforcing immigration law will create 
new problems that will endanger the safety of all Americans, and 
subject state and local law enforcement agencies and their officers to 
possible liability for racial and ethnic profiling. In short, moving 
our state and local police into the business of immigration enforcement 
risks the gains we have made against crime over the last fifteen years, 
and creates significant new perils for the men and women who dedicate 
themselves to public safety. This explains why the overwhelming number 
of state and local police departments and law enforcement professional 
organizations want no part of immigration enforcement.

     SECTION 287(G) AND EFFORTS TO PUSH STATE AND LOCAL POLICE TO 
                        ENFORCE IMMIGRATION LAW

    In the 1990s, Congress created Section 287(g) of the immigration 
law. Section 287(g) authorized the federal government to enter into 
voluntary agreements called Memoranda of Agreement (MOAs) with state 
and local law enforcement agencies, under which the state and local 
police departments (usually small numbers of designated officers from 
within the departments) would become partners with federal immigration 
enforcement agencies. They would work together on immigration 
enforcement; would receive some training; and would participate in 
joint operations under federal supervision.
    But no police departments decided to participate in the 287(g) 
program until early in this decade; even then, only two agencies--state 
police in Florida and Alabama--chose to involve small numbers of their 
officers in the program. (The number has since grown, but remains 
miniscule compared to the 17,000 police departments nationwide, and 
includes no police departments from major cities.)
    This has frustrated some who advocated for stronger immigration 
enforcement. In particular, many Americans have questioned the federal 
government's inability to assure the integrity of our borders against 
unauthorized crossings. By 2006, an estimated twelve million people had 
entered the country illegally, and the federal agencies empowered to 
deal with the problem seemed unable or unwilling to do so in any 
satisfactory way, and resulted in the introduction of federal 
legislation such as the Clear Law Enforcement for Criminal Alien 
Removal (CLEAR) Act, H.R. 2671 (108th Cong.), and the Homeland Security 
Enhancement Act, S. 1906 (108th Cong.). Both bills aimed to force non-
federal police into the enforcement of immigration law by depriving 
those agencies that refused to do so of federal funds designed to 
reimburse them for the costs of detaining and housing illegal 
immigrants for the federal government. These costs to states, counties, 
and municipal governments ran into the millions of dollars, often 
because the federal government could not or would not do its duty and 
take custody of the individuals apprehended. The threat to these local 
governments was real: either step up and begin enforcing immigration 
law, or lose the money you need to pay for carrying this federal 
burden. Virtually all major police organizations, including the 
International Association of Chiefs of Police, the Major Cities Chiefs 
Association, opposed this legislation.
    These were not the only efforts made to push state and local police 
into immigration enforcement. During the Bush Administration, the 
Department of Justice began to use the National Crime Information 
Center (NCIC) database for this purpose. NCIC constitutes the single 
most important information source for police departments and cops on 
the street in the U.S. Police in every corner of the country query NCIC 
thousands of times a day to determine whether drivers stopped for 
traffic enforcement, suspicious persons encountered by officers, or 
persons arrested for crimes are wanted in any jurisdiction. The FBI 
maintains the NCIC under a strict federal law governing how police 
agencies can use it and what kind of information may be put into it. 
Only certain data can be entered, in order to keep NCIC free of 
inaccurate, untimely, and unnecessary information; all other types of 
data are strictly prohibited. In direct violation of these rules, the 
Department of Justice put tens of thousands of immigration warrants--
most of which are civil in nature and do not even pertain to crimes--
into NCIC, with the goal of forcing local police to make arrests based 
on these warrants.
    All of these efforts took place against the backdrop of increased 
pressure from advocates of stronger immigration enforcement, who 
clothed their efforts in the rhetoric of the war on terror. If millions 
of poor people from Mexico and Central America could make it into the 
U.S. by simply walking across the border, surely potential terrorists 
could do this, too. Never mind the lack of evidence that this had 
occurred or might occur at some time in the future; it could happen, 
they argued, so policing the border had to become a national security 
matter. And state and local police needed to take on the job of 
immigration enforcement to keep our country safe from terrorists.

         THE RESPONSE OF POLICE DEPARTMENTS: ``NO, THANK YOU''

    American police departments and their officers have a long history 
of rising to challenges for the country, of responding in times of 
emergencies large and small, short and long term, with a willingness to 
tackle whatever problems have emerged. Thus it surprises long-time 
observers of the criminal justice system to see that (with only a few 
exceptions) state and local law enforcement has answered the call to 
enforce immigration law with a straightforward refusal: ``no, thank 
you.''
    For some, it is a matter of the correct use of governmental powers. 
Immigration is a federal matter, both under the Constitution and in 
every practical sense. Therefore, the federal government has always had 
the job of enforcing our numbingly complex immigration laws, and that 
must continue. For others, the question comes down to resources. Police 
departments have never found themselves more strapped; some governments 
have had to lay off officers. They also face a daunting new array of 
homeland security-related tasks, at the same time that they find their 
ranks depleted by military deployments of officers who are members of 
the National Guard. They simply do not have the wherewithal to take on 
the huge and complex problem of immigration enforcement.
    But by far the most common response to the push to get state and 
local police involved in immigration enforcement centers on the core 
public safety responsibilities of our police departments. Simply put, 
police officers know that getting involved in immigration enforcement 
would constitute a huge mistake from the perspective of crime fighting. 
It will degrade their ability to prevent crime and catch criminals; 
they will find their ability to keep people safe crippled. And for that 
reason above all others, they want no part of the effort.

      DESTROYS THE ABILITY OF LOCAL POLICE TO ASSURE PUBLIC SAFETY

    For the past two decades, American police departments have 
virtually all moved toward community policing. While this philosophy of 
police work has many facets, among the most important is that police 
and the communities they serve must work together to make the streets 
safe in our cities and towns. Partnerships, based on trust, put police 
and citizens on the same side of the struggle against crime, instead of 
solidifying old ``us versus them'' differences. This results in police 
receiving valuable information from citizens about who is up to what in 
their neighborhoods. And it is this information that is the lifeblood 
of successful policing; without it, police do nothing but respond to 
crime after it happens, and can do nothing to prevent damage before it 
occurs. Thus the relationships between police and the people who live 
in our communities are at the heart and of any anti-crime effort. 
Without it, police move about only blindly, without guidance from the 
people who know what is happening on the ground.
    Creating and nurturing these relationships is not easy, and always 
takes sustained effort over time, especially in communities in which 
there exists a history of mistrust and abuse. But police departments 
that have successfully devoted themselves to community policing have 
undertaken the task and devoted resources to it because it pays real 
dividends in terms of crime reduction.
    The task is only more difficult in immigrant communities. In these 
areas, police confront cultural differences invisible to the 
uninitiated outsider. Along with culture, language barriers can make 
even basic communication difficult. What is more, people in immigrant 
communities may carry a distrust of police from experiences in their 
home countries. Despite all of this, American law enforcement has built 
a record of attempting to work through these differences to build 
relationships. The police realize that, as in any other community, they 
need public support to succeed--whether the public consists of native 
born Americans, naturalized immigrants, even illegal immigrants, or a 
mix of all three. And, generally speaking, they have worked hard to 
create these relationships.
    Involvement of state and local police in immigration enforcement 
potentially jeopardizes all of this progress, and threatens to cut off 
the all-important avenues of communication and information that 
community policing uses to create public safety. Put simply, if state 
and local police become participants in immigration enforcement, people 
in immigrant communities will not trust them. Instead, they will begin 
to fear them, and to fear contact with them. They will fear that any 
encounter with the police--reporting a crime, telling a police officer 
about dangerous persons or events in the community, or even telling an 
officer that they themselves have become crime victims--will result in 
investigation of them, and will focus on their immigration status. Thus 
every police contact becomes a possible occasion for deportation. 
Naturally, immigrants whose legal status is questionable will fear 
this, and avoid the police.
    This fear will spread beyond illegal immigrants. According to the 
Pew Hispanic Center, 3.2 million American citizens live in mixed status 
households, in which some people have legal status, but others do not. 
Even those with legal status will hesitate to become involved with 
police if they think it might bring immigration consequences on someone 
living in the home--usually, of course, a family member.
    The consequences of this are both obvious and disastrous. First, 
police will not have all of the information that they need to make the 
neighborhood safe, because some number of residents will not 
communicate with them out of fear. Second, and perhaps more appalling, 
immigrants victimized by predators--robbers, rapists, even potential 
killers--will not report crimes against them. This leaves the predators 
free to victimize others.
    This is why police departments have not, as a rule, embraced the 
call to involve themselves in immigration enforcement: it will corrode 
their hard-won gains with immigrant communities, and as a consequence 
it will damage crime control efforts. According to Gene Voegtlin of the 
International Association of Chiefs of Police, ``a key concern is that 
state and local enforcement involvement in immigration can have a 
chilling effect on the relationship'' police have ``with the immigrant 
community in their jurisdiction.'' Cities and States Take On Difficult 
Duty of Handling Undocumented Workers, Wall Street Journal, Feb. 2, 
2006. This translates directly into less information for the police, 
and a lessening of their ability to catch criminals. ``It's a matter of 
practical policing,'' says George Gascon, former Assistant Chief of the 
Los Angeles Police Department and now Chief of Police in Mesa, Arizona. 
``If an undocumented woman is raped and doesn't report it, the suspect 
who raped that woman, remember, could be the suspect who rapes someone 
else's sister, mother or wife later.'' (Jack Dunphy, Arresting A Crime 
Wave, National Review 

Online, Jan. 30, 2006 http://article.nationalreview.com/
?q=MDUzZGUyNTgwNTEzYzliNDVkOGVjMjk3NjA0NzM4NzU=).

          RACIAL AND ETHNIC PROFILING ALMOST CERTAINLY FOLLOWS

    Inserting local police into immigration enforcement represents a 
serious mistake for another reason: it will force our police officers 
into an untenable position by giving them an assignment which most 
cannot carry out without relying on racial or ethnic appearance. This 
will lead them into profiling, and will subject them and their 
departments to legal liability.
    Immigration law ranks among the most complex bodies of rules, 
statutes, regulations and court cases that this country has. One court 
memorably noted the ``striking resemblance between (immigration law) 
and King Minos's labyrinth in ancient Crete, and said that immigration 
law is among ``examples we have cited of Congress's ingenuity in 
passing statutes certain to accelerate the aging process of judges.'' 
Lok v. INS, 548 F.2d 37, 38 (2d Cir. 1977). One might liken the extreme 
complexity of U.S. immigration law to the tax code--except that the tax 
code is easy to understand and changes less often by comparison. For 
this reason if no other, the task of immigration enforcement demands 
high specialized knowledge, training, and experience. Thus the 
importance of having expert immigration officers in agencies like 
Immigration and Customs Enforcement makes sense.
    In contrast, state and local police get no training in the 
intricacies of immigration law during their training. (Even those 
officers who are among the few in the U.S. who get training in 
immigration law under Section 287(g) MOAs receive only five weeks of 
training--not long enough to thoroughly grasp the rules.) And no 
officer can pick up crucial subtleties--of what makes specialized 
immigration documents genuine or fraudulent, of understanding when an 
individual allowed into this country legally may or may not have fallen 
out of status, or of knowing whether a work permit has or has not 
expired--simply from spending time on the street.
    Thus when state and local officers become involved in immigration 
enforcement, they operate without vital knowledge that usually enables 
police to make intelligent distinctions on the street between law 
abiding persons and possible criminals. This inevitably results in the 
use of substitute clues: racial or ethnic appearance, inability to 
speak English, or the presence of an accent. All of these, of course, 
constitute racial and ethnic markers. Relying on race or ethnicity this 
way may not be the intent of the officer in any way, but because they 
do not have access to other clues or intelligence, since they do not 
have the requisite training and direct immigration experience, they 
inevitably fall back on what is easily perceivable: ethnic appearance 
or accent.
    Note that the impact of this activity falls not just on persons 
present illegally in this country, but on anyone who looks or sounds as 
if they might belong to the same ethnic group. And the more people in 
any particular area who share that ethnic heritage, the more American 
citizens or legally present nationals will receive this treatment: they 
will be treated like people who have to prove they have a right to be 
present, perhaps in the country of their birth. Unfortunately, this 
will happen most frequently in the American southwest, where the 
population of American citizens with Mexican or Central American 
appearance will be highest.
    Enforcing the law based on race, ethnic appearance, or national 
origin violates the Equal Protection Clause of the Constitution, and 
can create legal liability for the departments and the officers 
involved. Legal action might come from the individuals affected by 
these practices, either singly or as part of a class of persons, or 
even from the Department of Justice, which has authority to bring suit 
against law enforcement agencies that engage in ``patterns or 
practices'' of violations of the constitutional rights of persons, 
under 42 U.S.C. Section 14141. Thus our police are put in an untenable 
position. If we push them into enforcing a complex body of law with 
little or no training, we put them into a position in which grave 
mistakes are nearly inevitable--mistakes which may cost them and their 
departments dearly.

                 A CASE STUDY: MARICOPA COUNTY, ARIZONA

    Many Americans have become familiar with ``Sheriff Joe'' Arpaio of 
Maricopa County, Arizona. He has long embraced his reputation as 
``America's toughest sheriff,'' and during the past year Arpaio has 
used his authority to undertake crackdowns on suspected illegal 
immigrants. This has included raids of various kinds, as well as the 
use of traffic enforcement as a pretext to investigate immigration 
status. Arpaio has frequently clashed with other local officials, 
including the heads of other law enforcement agencies in Maricopa 
County; he has staged his immigration enforcement actions in their 
jurisdictions unilaterally, with neither their permission nor 
participation, because his own jurisdiction is county wide. This has 
caused considerable frustration and consternation, but Arpaio has 
continued these actions anyway.
    Late in 2008, the conservative Goldwater Institute, located in 
Arizona, released an independent study of Sheriff Arpaio's immigration 
enforcement actions and the impact these actions have had on not just 
immigration but public safety in general. The report, entitled 
``Mission Unaccomplished,'' (which can be found at in its entirety at 
http://www.goldwaterinstitute.org/Common/Img/
Mission%20Unaccomplished.pdf) contained several key findings.

        <bullet>  Rates of violent crime in Maricopa County and the 
        City of Phoenix increased during Arpaio's immigration 
        enforcement initiative.

        <bullet>  Response times to 911 calls to the Sheriff's 
        Department increased.

        <bullet>  The immigration crackdown had resulted in the 
        diversion of significant resources away from the mission of 
        fighting crime and acting as primary first responders in 
        various emergency situations.

        <bullet>  There had been little or no coordination with other 
        police agencies during the Sheriff's enforcement actions, 
        resulting confusion among departments as well as anger and 
        resentment.

        <bullet>  The Sheriff's efforts had been utterly ineffective as 
        immigration enforcement mechanisms.

        <bullet>  These efforts had led directly to law suits against 
        the Sheriff's department, specifically for allegedly illegal 
        and unconstitutional conduct during the actions, including 
        profiling.

    And less than a month ago, Sheriff Arpaio's actions earned his 
department a dubious distinction. In the first action of its kind for 
the new Administration, the Department of Justice announced a formal 
investigation of the Maricopa County Sheriff's Department under 42 
U.S.C. Section 14141, for a ``pattern or practice'' of constitutional 
violations.

                               CONCLUSION

    For public safety and civil rights, the implications of immigration 
enforcement by state and local police departments could not be clearer, 
or more negative. Immigration enforcement by these non-federal law 
enforcement agencies will lead to a decrease in public safety and an 
increase in crime, because vital relationships between police and the 
communities they serve will break down, corroding under the fear 
generated by immigration enforcement. And going in this direction 
almost guarantees that police, no matter how well intentioned, will 
fall back into identifying suspects by racial or ethnic appearance--
racial profiling by any other name. By and large, our state and local 
police do not want to do this; they want no part of this doomed effort, 
and rightfully so. We must do everything in our power to support them 
and their desire to do what it takes to make us safe and to avoid the 
barriers immigration duties would put in their way.
                               __________

    Ms. Lofgren. Mr. Williams.

                 TESTIMONY OF HUBERT WILLIAMS, 
                  PRESIDENT, POLICE FOUNDATION

    Mr. Williams. Chairwoman Lofgren, Mr. King, distinguished 
Members of the Committee, thank you very much for providing me 
with an opportunity to speak here today on behalf of the Police 
Foundation on the issue of immigration enforcement and State 
and local police roles with respect to that.
    Interestingly enough, the Police Foundation over the past 
year has been actively involved with local law enforcement 
officials. We have held focus groups in cities with high 
immigration population, amongst police chiefs, immigrants 
themselves, scholars, and elected political officials. The 
objective of the Police Foundation in doing this was to gain 
insight and perspective at the ground level on this problem.
    As a result of that work, the Police Foundation held a 
national conference here in Washington, D.C. Last year. 
Approximately 100 police chiefs were in attendance at that 
conference, and many representatives of the immigrant community 
came to that conference. We will be issuing a report within the 
next 2 to 3 weeks on the work that we have done in the 
conference.
    I want to say to you today that we need to be assured that 
the police leaders in America have some voice in the 
establishment of national policy with respect to immigration 
enforcement.
    The title of our conference was ``The Role of Local Police: 
Striking a Balance Between Civil Liberties and Immigration 
Enforcement.'' We have seen through the years that people have 
argued their point of view by taking a particular piece of 
evidence and bringing it to the floor, but excluding and 
eliminating perhaps the greater evidence that would provide 
some insight and perspective as to the nature of this problem.
    If you look back to 1980, and you go from a period of 1980 
to 2006, you will find out that we had one of the largest 
increases in incarceration in our prison system ever. In 1980 
we had 500,000 people in the prison system. By the year 2006, 
we had 2.2 million people in the prison system. You will find, 
when you start to look at the statistics, that the immigrant 
population, when compared to the population of Americans born 
here, the crime rate was five times lower.
    I don't believe that we can characterize the entire 
immigrant community by looking at particular incidents in which 
immigrants have abused their place here, in which they have 
committed heinous crimes.
    I remember the Mafia and Cosa Nostra, which plagued the 
Italian community for decades. The criminal activity of this 
gang element caused some people to characterize all Italians as 
criminals. The Irish and other ethnic groups had similar 
problems in decades gone by. And people who characterize an 
entire community by the activities of a few do a disservice to 
all of us. We ought not in this United States Congress allow 
ourselves to be pulled into that direction, but rather we 
should look at the immigration enforcement issue more 
comprehensively by carefully examining the roles and 
responsibilities of the parties of interest.
    Let me finally say this: The big challenge for local police 
is to balance the interests involved with respect to their 
responsibilities under the police powers of the State, and 
their responsibilities to ensure civil liberties established 
under the Constitution, with this business of enforcement of 
immigration laws. It is very complicated, very difficult, and 
police chiefs have made that clear in our conference.
    I would like to read to you, if I may, some of the 
highlights of their recommendations.
    Number one, the cost of participating in the U.S. 
Immigration and Customs Enforcement's 287(g) program outweighs 
its benefits.
    Police officers should be prohibited from arresting and 
detaining persons to solely investigate immigration status in 
the absence of probable cause of an independent State law 
criminal violation.
    If a local agency, nevertheless, enters into the 287(g) 
program, its participation should be focused on serious 
criminal offenders and should be limited to verifying the 
immigration status of criminal detainees as part of the 287(g) 
jail enforcement program.
    Local and State authorities participating in immigration 
enforcement activities should develop policies and procedures 
for monitoring racial profiling and abuse of authority.
    Ms. Lofgren. Mr. Williams, could you wrap up? The only 
reason why I am interrupting is that we do have this as part of 
our written record.
    Mr. Williams. Precisely. Let me just complete this last 
point and then I will close up.
    Ms. Lofgren. Thank you so much.
    Mr. Williams. In order to preserve the trust that police 
agencies have built over the years by aggressively engaging in 
community-oriented policing activities, local law enforcement 
agencies should involve representatives of affected communities 
in the development of local immigration policies.
    The Police Foundation has worked for approximately 40 years 
to improve the capacity of police to ensure public safety and 
to perform their duties effectively. And we believe that this 
issue of immigration enforcement is something that really needs 
to be looked at more carefully and in a more balanced way.
    Ms. Lofgren. Thank you very much for your testimony and for 
your service to our country.
    [The prepared statement of Mr. Williams follows:]

                 Prepared Statement of Hubert Williams

    Mr. Chairman, Madam Chairman and distinguished committee members. 
Thank you for this opportunity to present my testimony on state and 
local law enforcement of federal immigration laws.
    My name is Hubert Williams. My law enforcement career began in the 
Newark, New Jersey Police Department more than three decades ago and I 
served as its Director of Police for eleven years. I was founding 
president of the National Organization of Black Law Enforcement 
Executives and am a lifetime member of the International Association of 
Chiefs of Police.
    I am currently president of the Police Foundation, a national, 
nonpartisan, nonprofit organization established in 1970 to improve 
American policing. Motivating all of the foundation's efforts is the 
goal of efficient, effective, humane policing that operates within the 
framework of America's constitutional standards and democratic values.
    Over the past year, the Police Foundation conducted a national 
project entitled, The Role of Local Police: Striking a Balance Between 
Immigration Enforcement and Civil Liberties, that examined the 
implications of state and local law enforcement of federal immigration 
laws. A main goal of the project was to provide local law enforcement 
with a venue to debate and disseminate their perspectives about their 
role in immigration enforcement so that they may have an influence in 
the national policy debate. The project brought together police 
executives, policy makers, elected officials, scholars, and community 
representatives in a series of focus groups across the country and at a 
national conference here in Washington. The project included reports on 
the rights of undocumented immigrants and the legal framework for the 
enforcement of immigration laws, demographic research, immigration and 
criminality, evaluation of federal efforts to collaborate with local 
police on immigration enforcement (specifically, the 287(g) program), a 
national survey of local police immigration policies, the experience of 
undocumented youth, and a survey of law enforcement executives 
attending the conference about their views on local immigration 
enforcement issues. The final report of this project will be published 
in the next few weeks.
    My testimony here today will focus on our findings and 
recommendations regarding the role of local law enforcement in 
enforcing federal immigration laws.
    Traditionally, the prevailing view was that the responsibility for 
enforcing federal immigration laws was solely in the purview of the 
federal government. In 1996, however, Congress passed legislation 
expanding the role of local law enforcement in federal immigration 
enforcement. The most well-known program is the U.S. Immigration and 
Customs Enforcement's (ICE) 287(g) program, which authorizes federal 
officials to enter into written agreements with state and local law 
enforcement agencies to carry out the functions of immigration 
officers, including investigation, apprehension, and detention.
    The trend toward greater involvement of state and local law 
enforcement in federal immigration enforcement gained significant 
momentum after the terrorist attacks of 9/11, through pressure placed 
on them by their elected leaders, their communities, and the media.
    To-date, only a fraction of a percentage of police and sheriffs' 
departments has opted to participate in the 287(g) program. There are 
good reasons for this. Police executives have felt torn between a 
desire to be helpful and cooperative with federal immigration 
authorities and a concern that their participation in immigration 
enforcement efforts will undo the gains they have achieved through 
community oriented policing practices, which are directed at gaining 
the trust and cooperation of their communities, including immigrant 
communities.
    The reluctance of local police to enforce federal immigration law 
grows out of the difficulty of balancing federal and local interests in 
ways that do not diminish the ability of the police to maintain their 
core mission of maintaining public safety, which depends heavily on 
public trust. In communities where people fear the police, very little 
information is shared with officers, undermining the police capacity 
for crime control and quality service delivery. As a result, these 
areas become breeding grounds for drug trafficking, human smuggling, 
terrorist activity, and other serious crimes. As a police chief in one 
of our focus groups asked, ``How do you police a community that will 
not talk to you?''
    Law enforcement leaders are also concerned about the impact of 
local law enforcement of immigration laws on already strained state and 
local resources, the high possibility of error given the complexity of 
immigration law, a possible increase in police misconduct, the 
possibility of racial profiling and other civil lawsuits, and increased 
victimization and exploitation of immigrants.
    The following recommendations and policy positions were widely held 
among law enforcement executives participating in our project.

        <bullet>  The costs of participating in the U.S. Immigration 
        and Customs Enforcement's (ICE) 287(g) program outweigh the 
        benefits.

        <bullet>  Police officers should be prohibited from arresting 
        and detaining persons to solely investigate immigration status 
        in the absence of probable cause of an independent state law 
        criminal violation.

        <bullet>  If a local agency nevertheless enters the 287(g) 
        program, its participation should be focused on serious 
        criminal offenders and should be limited to verifying the 
        immigration status of criminal detainees as part of the 287(g) 
        Jail Enforcement Officer program.

        <bullet>  Local and state authorities participating in federal 
        immigration enforcement activities should develop policies and 
        procedures for monitoring racial profiling and abuse of 
        authority.

        <bullet>  In order to preserve the trust that police agencies 
        have built over the years by aggressively engaging in community 
        oriented policing activities, local law enforcement agencies 
        should involve representatives of affected communities in the 
        development of local immigration policies.

        <bullet>  There is a need for empirical research on ICE's 
        287(g) program and other methods of police collaboration with 
        federal immigration authorities so that we have more objective 
        data by which to better understand the way in which these 
        programs are carried out in the field and their impact on 
        public safety and civil liberties.

        <bullet>  Local law enforcement agencies should employ 
        community-policing and problem-solving tactics to improve 
        relations with immigrant communities and resolve tension caused 
        by expanding immigration.

        <bullet>  The federal government must enact comprehensive 
        border security and immigration reforms, because the federal 
        government's failure on both issues has had serious 
        consequences in cities and towns throughout the country.

    Local police chiefs recognize that mutually cooperative and 
supportive relationships among law enforcement authorities strengthen 
the capacity of government at all levels to ensure that our communities 
and our nation remain safe and secure. But when local police execute 
the powers of immigration enforcement officers--as is the case when 
they check for green cards at roadblocks, or stop people for motor 
vehicle violations and request documentation or information associated 
with immigration status--they execute an immigration enforcement 
function in contacts with the general public. As a result, they assume 
all of the attendant risks and consequences associated with such 
activities. These risks are diminished considerably when the exercise 
of police authority does not involve contacts with the general public, 
such as would be the case when officers are processing prisoners in 
connection with DHS to determine whether there are any outstanding 
warrants or holds against those individuals, or when transferring 
prisoners with warrants or holds into the custody of DHS.
    The effectiveness of local police is heavily dependent upon the 
nature of the relationship they have with the general public and the 
degree to which the police and community are able to work 
collaboratively to resolve crime problems. Local police must serve and 
protect all residents regardless of their immigration status, enforce 
the criminal laws of their state, and serve and defend the Constitution 
of the United States. Local law enforcement agencies that opt to 
enforce federal immigration law should do so in a manner that does not 
erode their relationship with immigrant communities or subordinate 
municipal interests to those of the federal government. Local law 
enforcement must be careful to strike a balance between immigration 
concerns, civil liberties, and maintaining public safety.
    Thank you and I will be pleased to answer any questions.
                               __________

    Ms. Lofgren. Police Chief Gascon.

              TESTIMONY OF GEORGE GASCON, CHIEF, 
                MESA POLICE DEPARTMENT, MESA, AZ

    Chief Gascon. Madam Chairman, Subcommittee Members, I am 
pleased to be here today to discuss the impact that the 287(g) 
program is having on local law enforcement.
    The application of the 287(g) by local police has created a 
variety of challenges for public safety. Increased political 
pressure on local law enforcement to reduce undocumented 
immigration, coupled with Federal deputation of local police to 
enforce Federal immigration statutes is jeopardizing sound and 
well-established policing practices. It is imperative that the 
Federal Government act to remedy the situation.
    First, we need clear guidelines that provide police with 
the tools necessary to deal effectively with serious criminal 
activity committed by removable undocumented immigrants.
    Second, we need to ensure that any federally sponsored 
program for this purpose contains clearly stated constitutional 
protections to ensure communities and individuals they are not 
being racially profiled.
    Finally, it needs to ensure that some community policing 
practices are encouraged. To do so, positive and respectful 
public engagement and partnerships must be embedded into any 
federally supported process aimed at addressing serious 
criminality by undocumented immigrants through the use of local 
police.
    To be sure, providing local and State police with the tools 
necessary to address serious criminal behavior by noncitizens 
here, without authority, is a priority. Our police officers 
need the tools and support necessary to do their jobs safely. 
To that end, fast access to relevant information concerning 
wanted criminal aliens must be made available to police field 
personnel so they can protect themselves and our communities. 
Currently, that level of information is not readily available 
in the field for police personnel regardless of their 287(g) 
status.
    At the same time, the constitutional concerns created by 
the current state of affairs should be troubling to all of us. 
The impact on local law enforcement in this politically charged 
environment can be devastating. In some cases, it is setting 
the police profession back to the 1950's and 1960's, when 
police officers were sometimes viewed in minority communities 
as the enemy.
    According to Mr. Stana, Director of Homeland Security and 
Justice at the Government Accountability Office, the main 
objective of the 287(g) program is to enhance the safety and 
security of communities by addressing serious criminal activity 
committed by removable aliens.
    Unfortunately, in some cases enforcement decisions are 
being based on politics instead of professional public safety 
concerns, and the goal of dealing with serious criminal 
activity has been replaced by a numbers game. Often these 
poorly conceived and politically motivated enforcement efforts 
are placing officers in harm's way, leading to accusations of 
police misconduct.
    The impact of the 287(g) program in some predominantly 
Hispanic communities has been equally problematic. Often, 
allegations of race-based enforcement practices are driving a 
wedge between the police and the impacted communities.
    Community policing efforts are being derailed when 
immigrants who fear that the police will help to deport them 
rely less on the local authorities and, instead, give thugs 
control over their neighborhoods.
    Community policing requires effective partnership between 
the police and the various community services. At the local 
level, sustainable public safety strategies require active 
community participation and problem solving efforts. For this 
level of community engagement to flourish, the public must 
trust the police. It is nearly impossible to gain the required 
trust to make community policing a reality in places where the 
community fears the police will help deport them, or deport a 
neighbor, a friend, or a relative.
    In conclusion, American police officers deserve thoughtful 
Federal leadership so that we can continue doing our best to 
provide our country with the security that defines a civilized 
society.
    In the case of the 287(g) program, any future participation 
should be predicated on clearly stated guidelines that, number 
one, ensure that all field officers of the concerned agency 
have immediate access to information regarding noncitizens who 
are charged with or convicted of serious criminal conduct.
    Number two, strict constitutional requirements are placed 
on any participating agency.
    And thirdly, engagement strategies by the impacted 
community in the form of participation and problem-solving 
partnerships must be required to partake in the program.
    With that, Madam Chairman, I am open for any questions.
    Ms. Lofgren. Thank you very much, Chief.
    [The prepared statement of Chief Gascon follows:]

                  Prepared Statement of George Gascon

    The application of 8 USC 1357(g) (hereinafter 287(g)), by local 
police has created a variety of challenges for public safety. Increased 
political pressure on local law enforcement to reduce undocumented 
immigration coupled with the Federal deputation of local police to 
enforce federal immigration statutes is jeopardizing sound and well 
established policing practices.
    It is imperative that federal government act to remedy this 
situation. First, we need clear guidelines that provide police with the 
tools necessary to deal effectively with serious criminal activity 
committed by removable undocumented immigrants. Second, we need to 
ensure that any federally sponsored program for this purpose contains 
clearly stated constitutional protections to ensure communities and 
individuals are not being racially profiled. Finally, it needs to 
ensure that sound community policing practices are encouraged. To do 
so, positive and respectful public engagement and partnerships must be 
embedded into any federally supported process aimed at addressing 
serious criminality by undocumented immigrants through the use of local 
police.
    To be sure, providing local and state police with the tools 
necessary to address serious criminal behavior by non-citizens here 
without authority is a priority. Our police officers need the tools and 
support necessary to do their job safely. To that end, fast access to 
relevant information concerning wanted criminal aliens must be made 
available to police field personnel so that they can protect themselves 
and our communities. Currently, that level of information is not 
readily available in the field for police personnel regardless of their 
287(g) status.
    At the same time, the constitutional concerns created by the 
current state of affairs should be troubling to all of us. The impact 
on local law enforcement in this politically charged environment can be 
devastating. In some cases it is setting the police profession back to 
the 1950s and 60s, when police officers were some times viewed in 
minority communities as the enemy.
    According to Richard Stana, Director of Homeland Security and 
Justice at the Governmental Accountability Office,\1\ the main 
objective of ``the 287(g) program is to enhance the safety and security 
of communities by addressing serious criminal activity committed by 
removable aliens''. Unfortunately, in some cases enforcement decisions 
are being based on politics instead of professional public safety 
concerns, and the goal of dealing with serious criminal activities has 
been replaced by a numbers game. Often these poorly conceived and 
politically motivated enforcement efforts are placing officers in harms 
way leading to accusations of police misconduct.
---------------------------------------------------------------------------
    \1\ Testimony Before the Committee on Homeland Security, House of 
Representatives, ``Immigration Enforcement: Controls over Program 
Authorizing State and Local Enforcement of Federal Immigration Laws 
Should Be Strengthened'' (March 9, 2009).
---------------------------------------------------------------------------
    The impact of the 287(g) program in some predominantly Hispanic 
communities has been equally problematic. Often allegations of race-
based enforcement practices are driving a wedge between the police and 
the impacted communities. Community policing efforts are being derailed 
where immigrants who fear that the police will help to deport them rely 
less on the local authorities and instead give thugs control of their 
neighborhoods.
    Community policing requires effective partnerships between the 
police and the various communities served. At the local level, 
sustainable public safety strategies require active community 
participation in problem solving efforts. For this level of community 
engagement to flourish the public must trust the police. It is nearly 
impossible to gain the required trust to make community policing a 
reality in places where the community fears the police will help deport 
them, or deport a neighbor, friend or relative.
    In conclusion, America's police officers deserve thoughtful federal 
leadership so that we can continue doing our best to provide our 
country with the security that defines a civilized society. In the case 
of the 287(g) program, any future participation should be predicated on 
clearly stated guidelines that ensure (1) all field officers of the 
concerned agency have immediate access to information regarding non 
citizens who are charged with or convicted of serious criminal conduct; 
(2) strict constitutional requirements are placed on any participating 
agency; and (3) engagement strategies by the impacted community in the 
form of participation and problem solving partnerships must be required 
to part take in the program.
                               __________

    Ms. Lofgren. And finally, we turn to you, Professor Kobach.

   TESTIMONY OF KRIS KOBACH, PROFESSOR OF LAW, UNIVERSITY OF 
               MISSOURI-KANSAS CITY SCHOOL OF LAW

    Mr. Kobach. Thank you, Madam Chairman, and Members of the 
Committee, for discussing this important topic today.
    I was involved as counsel to the U.S. Attorney General in 
the first two implementations of section 287(g) in 2002 and 
2003, respectively, in the jurisdictions of Florida and 
Alabama. Both of those implementations were at the State level, 
and I would be happy to speak about them in response to your 
questions.
    The Florida Memorandum of Agreement under 287(g) became 
effective in July 2002; the Alabama was in September of 2003. 
The Florida one was the first, of course. It was an immense 
success. Within the first year of its operation in Florida, 
specially trained officers had arrested 165 individuals under 
287(g) authority. They since broadened their authority. And 
they also made a huge arrest in a fraudulent document 
production ring in Naples, Florida.
    At the time of this hearing, there are now 67 
jurisdictions--State, county and local--across the United 
States that have 287(g) authority. They compromise a group of 
951 State and local law enforcement officers who, in their 
part-time capacity, in the course of their normal duties, will 
assist the Federal Government in some enforcement arrests. 
There are another 42 State and local agencies across the 
country that are waiting to get involved in the 287(g) program.
    So it is interesting; I hear the allegations that the 
program is so costly, but how is it, then, that 42 agencies are 
lining up outside the door waiting to get on board, but the 
agency simply isn't able to turn out the agreements fast 
enough?
    Now, in just 25 of the 42 jurisdictions that do have 287(g) 
authority, there have been, in 1 year alone, fiscal year 2008, 
43,000 immigration arrests. And virtually all of those led to 
either a notice to appear, which triggers an immigration court 
proceeding, or the individual is granted voluntary departure. 
So it has been a very effective program. It is unlikely that in 
the absence of the 287(g) program, any of those 43,000 arrests 
would have occurred.
    Now, by the way, let's put these numbers in perspective. 
ICE has a total of 5,600 special agents attempting to cover the 
entire country in attempting to find some 12 million illegal 
aliens that is estimated. The New York Police Department has 
approximately 37,000 police officers, seven times as many, or 
six times as many police officers. It is simply ludicrous to 
argue that ICE has all of the staffing and that we can simply 
push the responsibility entirely upon a small agency of 5,600 
and not allow the help voluntarily provided by the real eyes 
and ears of American law enforcement, and that is our State and 
local police.
    It would radically reduce and weaken the enforcement of 
immigration law for this Committee or any Committee to attempt 
to scale back the 287(g) program precisely at the time when 
over 12.5 million Americans are out of work and are competing 
for jobs with people who are unlawfully present in the United 
States and attempting to work in those same jobs.
    Now, I want to also address a myth that has arisen 
concerning section 287(g)--it has already been mentioned by 
other members of this panel. The myth is perpetuated by 
observers unfamiliar with the history of the program who say 
that the program's only purpose is to allow for the arrests of 
so-called serious criminals, those who have committed higher 
level felonies in addition to their immigration violations.
    That has never been part of the program. And when the 
Department of Justice first implemented the program in 2002, we 
looked at the words of Congress. The exact text of section 
287(g) of the Immigration Nationality Act contains no 
definition, no limitation as to what the purposes of the 
program are.
    Indeed, we looked at the statutory language--or I have 
looked at the statutory language and the Committee language. 
The Senate Judiciary Committee said simply this, ``The program 
authorizes the Attorney General to enter into written 
agreements with a State or any political subdivision of a State 
to permit specially trained officers to arrest and detain 
aliens.'' Nothing more is said.
    Now, the Department of Justice, as I say, began 
implementing this program, recognizing that it is not a one-
size-fits-all program, but that it meets the individual law 
enforcement needs of each jurisdiction. And there are at least 
six distinct purposes of section 287(g) which are detailed in 
my written testimony.
    The first is addressing terrorism-related concerns, which 
is Florida's primary concern.
    The second is dealing with compensating for a lack of 
Federal enforcement agency resources. At the time, Alabama had 
only three INS agents attempting to cover the entire State.
    The third purpose is removing convicted aliens who are in 
institutions right now.
    The fourth purpose is looking at high-risk criminal 
populations of aliens, such as gang members.
    The fifth purpose is generally restoring the rule of law in 
a State or jurisdiction that has seen rampant illegal 
immigration, such as Arizona.
    And the sixth purpose is protecting unemployed U.S. 
citizens from competition with illegal labor. All of those 
purposes are satisfied by the 287(g) program.
    I want to just briefly mention a few of those in the 
context of the programs that I was personally involved in 
implementing. In Florida, there was a particular concern that 
several of the 9/11 attackers had entered through Florida 
airports. Indeed, you may be familiar with Mohamed Al Khatani, 
the 20th hijacker. He was stopped at the Orlando International 
Airport and detained by a vigilant INS officer and stopped 
before entering.
    But the point is that many of the illegal aliens had 
operated, lived in, or entered through Florida. Florida was, 
therefore, particularly concerned about it. And their 287(g) 
agreement was designed to address that need.
    Alabama's need was not limited to individuals who were 
convicted of serious rimes, but rather the fact that you had an 
entire State covered by only three INS agents. They simply 
wanted to put forward their own resources and say we would like 
to help, we would like to be your eyes and ears.
    If you look at other States, such as, for example, Arizona, 
I think you see a real problem there. Because of the rampant 
illegal immigration in that State, you saw a massive fiscal 
burden on the State. And they decided that they would put forth 
some of their own resources to deal with the problem. It is 
estimated that the cost of illegal immigration, in terms of 
State public benefits and local public benefits in Arizona is 
$1.3 billion a year. And that is why you saw things like 
counties, such as Maricopa County, and five other jurisdictions 
saying, well, we would like to help. And at the State level, 
they are the first State, they are one of two States that now 
require E-Verify within that State. So they have done things at 
the State level to help the Federal Government, and it is 
producing results.
    There are massive numbers of self-deportations, people 
leaving the country voluntarily on their own without any 
expenditure of Federal dollars out of Arizona. That has been 
documented, and I would be happy to talk about it. But the 
point is that 287(g) is working, working exceedingly well, and 
it would be ill-conceived for this Committee to scale it back.
    Ms. Lofgren. Thank you very much.
    [The prepared statement of Mr. Kobach follows:]

                  Prepared Statement of Kris W. Kobach

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Ms. Lofgren. And we will go now to questions from the 
Committee. I would like to offer an opportunity to the Ranking 
Member to begin.
    Mr. King. Thank you, Madam Chairman. I would temporarily 
defer that to my deputy Ranking Member, Mr. Harper.
    Mr. Harper. Professor Kobach, before we get going on some 
questions, I know there were certain allegations made against 
you before you had an opportunity to give your intro. Would you 
care to address those for a moment?
    Mr. Kobach. Yes, I would. Thank you. I am not receiving any 
money for this testimony. This is in my personal capacity, 
although my primary qualification is as a professor of 
constitutional law and immigration law and as a former 
Department of Justice employee.
    When the slanderous letter from the SPLC was read into the 
record mentioning these slanders instead of the rest of my 
C.V., what was left out by what was put in the record is the 
fact that my law degree is from Yale, my doctorate is from 
Oxford. And the cases that have been brought that I have 
litigated on behalf of U.S. Citizens have been victorious in 
Federal courts across the country, including in the California 
Court of Appeals.
    And I guess the point is that when false accusations from a 
spurious organization are read into the record of an 
institution as hallowed as this one, I think it does a 
disservice to the institution. And I am not saying that the 
Chairwoman made a decision of her own to do this, but I just 
think that it is horrible because it hurts me to be associated 
with any beliefs that are racist in nature, and it hurts my 
family to see me associated with such beliefs.
    I think that such activities of organizations like that are 
reprehensible and should be prosecuted to the fullest extent of 
the law, if there are such race-based activities occurring. But 
I would never associate with them, and I just think it is 
horrible that a smear like that can be read into the 
Congressional Record.
    Mr. Harper. Professor Kobach, I would also like to ask you 
another question. I know you have been very successful on 
litigation across the country dealing with these particular 
types of issues. Obviously we detest the concept of racial 
profiling. But how do you balance the issues of trying to 
provide for border security, items of national security that we 
have? Obviously you are saying that with ICE, there are not 
enough agents that can handle this problem on their own. Am I 
correct on that?
    Mr. Kobach. I think that is a fair statement. We always 
need more ICE officers.
    Mr. Harper. So in order to deal with this issue of concern 
of some reported incidents of racial profiling, doing away with 
287(g), would that be the solution to that?
    Mr. Kobach. Not at all. And I am glad you asked that 
question, because one of the witnesses on the previous panel 
mentioned some jurisdictions that there were reports of 
incidents, not formal findings, but just reports of racial 
profiling, and the jurisdictions weren't even section 287(g) 
jurisdictions. So to assume causality, to assume that a 287(g) 
agreement somehow causes or facilitates racial profiling is 
simply illogical.
    And I would note, furthermore, that the officers who have 
received 287(g) training have received twice as much training 
against racial profiling as any other officer in Federal and 
State law enforcement. They receive their own State-level 
training against racial profiling--whichever State gives--and 
they have received ICE training against racial profiling. Most 
Federal officers have only received one set of classes. So they 
are actually very well trained.
    And I would finally note that throughout the entire 
testimony of every other witness that we have heard today, 
there have been reports, anecdotes, but there has not been one 
internal affairs investigation that has ever found any racial 
profiling by a 287(g) officer. There has not been one count 
that has ever found any truth in any report of any racial 
profiling incident.
    We are a country of the rule of law. And we do not punish 
people based on mere allegation or mere anonymous report. We 
are a country where we have inquiries done under rules of law, 
and under such inquiries there has never been any finding of 
any racial profiling associated with 287(g).
    Mr. Harper. Professor Kobach, it appears that one of the 
big concerns of the first panel was that people within an 
illegal immigrant community in this country were afraid to 
report crimes.
    As a former city prosecutor in two cities, that certainly 
wasn't the case where I prosecuted. We would have people that 
were there that were undocumented, that were here illegally who 
were witnesses in a crime. And the only way that anybody would 
ever come in was if that individual had been convicted of a 
crime and was held for jail time.
    Has that been a problem that you have seen across the 
country?
    Mr. Kobach. Not at all. And, indeed, this is one of the 
great red herrings of State and local law enforcement assisting 
the Federal Government in this regard. The argument is always 
made, well, you will see fewer witnesses come forward. There 
has not been one study, one piece of empirical evidence offered 
that that is actually happening. And frankly, I think a lot of 
people would be surprised to know that there are visas 
available for people who come forward and report crimes. Those 
visas are for people who lack status currently.
    And so not only is there no disincentive, because you are 
certainly not going to see the police departments turning away 
willing witnesses, they actually have something to give them, a 
benefit that can be received under immigration laws. The S-Visa 
is one of them.
    So I think this whole argument about the loss of witnesses, 
number one, there is no proof that it ever occurs; but number 
two, if it were happening in any of the 67 jurisdictions, don't 
you think one of those jurisdictions would say, all right, 
we're done? Anyone is free to leave the program, none of them 
have.
    Ms. Lofgren. The gentleman's time has expired.
    I would like to ask the chief some questions because we 
have reviewed a report by the Goldwater Institute--which I 
think is a pretty conservative institute by the name--and this 
is a quote from their review of the Maricopa County Sheriff's 
Office. ``The sweeps are often conducted in jurisdictions that 
have their own police departments; yet without coordination 
with those departments, creates extremely dangerous conditions 
for law enforcement personnel and bystanders.'' That is what 
the Goldwater Institute indicates.
    As I understand it--you will correct me if I am wrong--your 
police jurisdiction is within Maricopa County. And I haven't 
had a chance to talk to you or ask you, but last year, in 
October, The New York Times reported a very disturbing story 
where the sheriff, according to the paper, apparently conducted 
a raid on Mesa's City Hall to apprehend a janitor who they 
believed didn't have proper papers. And according to the 
report, it was a group of vigilantes who participate in 
Maricopa County Sheriff's Posse Program that more or less 
stormed City Hall in pursuit of this allegedly undocumented 
immigrant from some anonymous tip.
    Can you tell us what happened? Are there posses then used? 
Did the sheriff consult with you? Were there risks associated 
with this raid? As a police chief and a professional, can you 
advise us whether this is a good idea and what the downsides 
are?
    Chief Gascon. Thank you, Madam Chair. And actually, if I 
could for a moment go back to the sweeps, because the Maricopa 
County Sheriff has been in the city of Mesa multiple times in 
pursuance of their 287(g) or some other immigration 
enforcement. It actually started, there was one of those crime 
suppression sweeps that occurred prior to the raid on City Hall 
and on the public library. And in that particular instance, the 
sheriff was asked what was the reason for him going into Mesa. 
And I am quoting here basically. It came out, it was published 
in the East Valley Tribune where the sheriff indicated, ``I 
have a strange whole philosophy that if someone does something 
for you, gives you resources, gives you money, I think they 
want something back, and we ought to do it,'' he said. And he 
was referring to the fact that he had been asked by three or 
four local politicians to come into the city of Mesa.
    If you look at the 287(g) program, really one of the things 
that ICE talks about is that there should be articulable 
reasons, such as patterns of crimes, 911 calls, and other 
information that indicates that there is a crime problem in 
this particular area and the enforcement of 287(g) would help 
reduce the crime. In this particular case, the sheriff himself 
indicated, according to the East Valley Tribune, that he was 
simply coming into Mesa because he was paying back a political 
favor.
    Concerning the raid on City Hall and on the public library, 
that was a very disturbing moment, quite frankly. Many of us 
were shocked. We for a moment thought that we were perhaps in 
the Third World somewhere and not in a First World Nation.
    What occurred was that at approximately 1:30 in the 
morning, I get a notification from my patrol personnel that one 
or more officers driving through a local park saw a very large 
number of people--it turned out to be later on they were 
approximately 60--that were suited up in tactical gear, many 
were wearing masks. And it was hard for the officer initially 
to discern what the origin of this group was.
    And it was very concerning because not long before that, 
there had been an incident in the city of Phoenix where a group 
of individuals related to some drug organization had come in, 
they had dressed in police tactical gear in order to go and 
assault a contender and commit a homicide. And they actually 
confronted the police. So our officers were very concerned.
    When our officers finally approached, they realized that 
these were members of the Maricopa County Sheriff's Office. 
They made contact. They asked what they were doing there. The 
first officer was told by the Maricopa County Sheriff personnel 
that they were unable to discuss the reason for being there. So 
that was followed up.
    They also called the supervisor. The supervisor came to the 
scene. Initially he was told by members of the Maricopa County 
Sheriff's Office that they were there to do canine training. 
The sergeant looked around; there were two or three canines, 
there were approximately 60 officers. The math didn't quite add 
up. So he called the lieutenant. The lieutenant came up. He was 
also not given the information. And finally, about 5 minutes 
before 2 o'clock, we realized that they were going to make 
entry into two municipal buildings: one, the main library, and 
the other one was City Hall.
    Still to this point we had no idea what was going on. I was 
asked by my people for instructions. And basically what I told 
them was to cooperate and to stay out of the way of the 
sheriff's office. And then what occurred--and later on we saw 
this on closed circuit TV--is we saw large numbers of members 
of the Maricopa County Sheriff's Office dressed in tactical 
gear storming the two buildings.
    In the case of the public municipal library, several 
minutes later you can see two females in their forties or 
fifties that are being taken out. And they were arrested--and 
then there was one other individual that was in the parking 
lot--allegedly for being in the country without authority at 
the City Hall. Many folks were interviewed, and we could see 
that on closed circuit TV. They were asked for identifications. 
There were no arrests made.
    As we continue further down the line on this, obviously 
this was very shocking to us. There was another search warrant 
that was served later, at approximately 7 or 8 o'clock in the 
morning, in one of our police facilities and searched for 
records. And, quite frankly, we were extremely disturbed by the 
whole incident. We later found out as we started to investigate 
ourselves, as an allegation that came from the Sheriff's 
department, they were there to do a job that we were not doing 
because of the negligence of one of our lieutenants; that the 
declarations that were used to execute this warrant actually 
contained significant false information. It was provided to the 
sheriff's department as well as the county attorney, and we 
haven't heard since.
    Ms. Lofgren. By unanimous consent, I will take just one 
additional minute to ask you this. Would it be possible for you 
to share that footage with the Committee, to send it to us?
    Chief Gascon. I will look into it. I believe we do have it 
saved. Let me look into it, please.
    Ms. Lofgren. And secondarily, it has been reported--and I 
don't know if this report is true or not--that in some of these 
raids, your police have actually had to be deployed to protect 
the citizens of Mesa from the sheriffs. Is that just false, 
or----
    Chief Gascon. No, ma'am, it is not. One of the things that 
we noticed in some earlier operations by the sheriff's 
department in the city of Phoenix was that there were large 
numbers of people coming, both pro and against the operation. 
And the level of tensions was becoming very evident. There were 
incidents reported where people were shoving each other, 
brandishing weapons. We were very concerned. So I wanted to 
make sure that if the sheriff was going to do an operation in 
Mesa, we requested notification so that we could deploy 
accordingly, because we anticipated a lot of people coming to 
Mesa to demonstrate, and certainly there in the first raid we 
had that. We had to deploy a significant number of people and 
actually separate people.
    Ms. Lofgren. Thank you very much. My time has expired. I 
understand that Mr. King has asked that Mr. Franks be 
recognized next for his 5 minutes, and he is so recognized.
    Mr. Franks. Well, thank you, Madam Chair. And I just wanted 
to first start out by welcoming Police Chief Gascon from 
Arizona. I believe the police chief to be an honorable man that 
has dedicated his life to protecting the innocent in his 
society, and I don't know where we would be without people like 
him. So I want to welcome you, sir.
    Madam Chairman, regardless of what the hearing here is 
ostensibly named or what my colleagues on the Democrat side 
choose to emphasize, the effect of this hearing is geared 
toward dismantling--at least in my opinion--any meaningful 
immigration enforcement policy, or at least the intimidation 
and chilling of lawful law enforcement activity.
    My friends on the Democrat side seem to have a multifaceted 
systemic approach, with workplace inspection stopped, funding 
for E-Verify removed, and severely weakened 287(g) programs, 
all of which makes securing our borders very difficult.
    And Madam Chair, it is so important to remember, I am on 
the Armed Services Committee, and I believe that the most 
important elements of border security remain to be national 
security.
    But we still live in a 9/11 world.
    Arizona is now the capital of kidnapping in all of the 
world, with the exception of Mexico City. The Arizona Criminal 
Justice Commission told my staff just this week that there are 
more kidnappings in Maricopa County than there are in Baghdad 
or Islamabad or Caracas. And that is because Arizona has 
hundreds of miles of border with Mexico to monitor, and our 
Federal Government is simply not doing the job.
    And that is why 287(g) was put into place in the first 
place, because D.C. Either couldn't or wouldn't do the job, and 
so State and local officials responded. And they are doing a 
tremendous job toward curbing illegal immigration and securing 
the border in ways that are related, and, of course, the 
inherent criminal activity that comes with it.
    Now, recently, Sheriff Joe Arpaio of Maricopa County has 
come under fire by Members of this Committee and the Department 
of Justice for, in my opinion, trying to enforce the law as he 
understands it and as it was written in section 287(g) by this 
Congress. And it appears to some in Arizona that a witchhunt 
has been initiated against Sheriff Arpaio for trying to enforce 
the law to keep Arizona safe.
    And since I am the only Member here of the Committee that 
is on the ground in Maricopa County, perhaps I am more familiar 
with Sheriff Joe than anyone else here today. Now, I will just 
be very open. There are many times when I have not agreed with 
the sheriff and his approach or his tone. And I want to make 
that clear. But I still believe, along with many others in 
Arizona, that it appears that he has become a scapegoat used in 
a tactical assault focused on diluting the powers of 287(g) 
nationwide.
    The reason that I don't believe Sheriff Arpaio is guilty of 
racial profiling, as some have said, is simply because of my 
own observations. He has personally assured me that this is not 
the case and he has, at all times, tried to conduct his efforts 
within the boundaries of the law.
    It is also true that a simple statistic gets in my way: 33 
percent of those in Maricopa County jails are illegal 
immigrants--33 percent--and yet 53 percent of violent crime in 
Maricopa County is perpetrated by illegal immigrants. Now, I am 
not sure you can come away with a statistical way to indicate 
that racial profiling is happening, based on that statistical 
reality.
    Over the last few years, the 370-mile Arizona border has 
experienced increased violence associated with drug and human 
trafficking and due to conflict among cartels and gangs such 
the MS-13, resulting in a new breed of crime some refer to as 
narcoterrorism. And, of course, I have already mentioned the 
danger of potential terrorist incursion into our country.
    United States border communities are being gravely affected 
by the spillover of drug-related violence, resulting in 
hundreds of assaults on border agents each year. Currently, as 
I said, over 33 percent of inmates in Maricopa County Sheriff 
facilities are illegal immigrants, and more than 53 percent of 
violent crimes are committed by illegal immigrants.
    So my question, Professor Kobach, given your expertise in 
race and ethnicity guidelines and in law enforcement activity, 
and given the statistics I have just mentioned, and under 
current Supreme Court precedent, do you believe that there are 
statistical indications that there is law enforcement activity 
in Arizona, Maricopa County, creating a disparate impact on 
persons of Mexican or Central American national origin that 
violates the Constitution? It is a hard question, but I still 
ask it.
    Ms. Lofgren. The gentleman is, by unanimous consent, 
granted an additional minute so the witness can answer.
    Mr. Kobach. Well, certainly not. The statistics do not 
support it. And, of course, statistics alone wouldn't establish 
that racial profiling had occurred or that any discriminatory 
actions by police officers had occurred. So we have to be 
cautious about attributing too much to statistics about race of 
people arrested or incarcerated versus race of a community or 
ethnicity.
    But I would point out that there are many, many legal 
avenues available if racial profiling occurs. There is not a 
specific Federal law, but there is, of course, a general 
Federal law. It is possible to bring a lawsuit under section 
1983 to recover monetary damages for any State or local 
official who illegally or unconstitutionally engages in racial 
profiling. There are also State laws that can be brought to 
bear in almost every State.
    So, if it were occurring significantly or 
disproportionately or even at all, you would see some of these 
suits being brought and achieving success in the courts. We 
have not seen that in any of the 287(g) jurisdictions. And so, 
again, I think it is wrong to attribute any causality. And, 
indeed, the effect hasn't yet occurred, in terms of something 
that we can say, ``yes, it has been proven in this incident.''
    Ms. Lofgren. The gentleman's time has expired.
    And we have been called for votes, but what we have agreed 
to do is to go as long as we can here. It is just one vote. So 
we will wait until the end, rush over, cast our votes, and then 
immediately return to finish this discussion.
    But I think we have time for at least one additional Member 
to begin questioning. So I would recognize the Chairman of the 
Constitution Subcommittee, Mr. Nadler, for his questions.
    Mr. Nadler. Before I ask my questions, I must just object 
to one thing that Professor Kobach said. I have never in my 
life heard the Southern Poverty Law Center called a spurious 
institution. The Southern Poverty Law Center is, by almost 
unanimous consent, one of the most respected institutions in 
this country. You may want to sue it for libel or slander, that 
is your privilege, if you think what it said was not correct. I 
am not going to comment----
    Mr. Kobach. You should----
    Mr. Nadler. Excuse me, I am not asking a question. I am 
making a statement right now.
    I am not going to comment on the letter or on your defense 
of it. That is beyond what I want to say. But to call the SPLC, 
which may or may not have done the wrong thing here--I think it 
didn't do a wrong thing, but that is not the point. You can sue 
them for libel if you want, but to call them a spurious 
organization.
    This is a group that helped implement the Civil Rights Act 
of 1964 and 1965, whose courtroom challenges led to the end of 
many discriminatory practices, including ending the involuntary 
sterilization of women on welfare, reformed prison and mental 
health conditions, resulted in landmark decisions by the U.S. 
Supreme Court, developed strategies to hold White supremist 
leaders accountable for their followers' violence, sued for 
monetary damages and recovered against the Klan, and shut down 
several Ku Klux Klans.
    Its quarterly intelligence report is read by nearly 60,000 
law enforcement officers nationwide. And its Intelligence 
Project research has led to criminal convictions in several 
hate crime cases. And they are generally considered the leading 
authority on racist and hate groups in this country today. So 
calling them spurious is a little beyond the pale.
    Chief Gascon, the December 2008 report by the Goldwater 
Institute was already referenced. That report found that, in 
Maricopa County, between 2004 and 2007, violent crimes grew by 
over 69 percent, including a 166 percent increase in homicides 
over the 3-year period. In contrast, the annual report, violent 
crimes in Mesa, Arizona, your hometown, decreased by 11 
percent, and the number of reported homicides stayed the same 
in Mesa, which is during the same time period. Mesa, of course, 
is located in Maricopa County.
    So, in other words, there is a 166 percent increase in 
homicides, 69 percent of violent crime in the county as a 
whole, but a decrease of 11 percent in violent crime and static 
homicides in Mesa.
    How do you account for the increase of violent crimes in 
Maricopa County at the same time that they decreased in Mesa?
    Chief Gascon. Well, in my opinion, it has to do with the 
lack of police attention to the local law enforcement work. In 
Mesa, we concentrate on dealing with the people that are 
committing the local crimes. And, frankly, many times, we have 
to deal even with crimes that are being committed in what we 
call the county islands, which are policed by the sheriff 
department, because it impacts our own crime.
    I think the problem--and we have seen this not only in 
those areas that are policed by the county, but we also have 
seen it in areas that were previously contract to the county, 
for instance, like the city of El Mirage, where that city was 
policed by the county, they ended the contract, hired their own 
police department, and all of a sudden realized that there were 
about 300 violent crimes that had gone uninvestigated by the 
sheriff's department because they did not have the resources to 
do the work.
    Mr. Nadler. So, in other words, the sheriff's department, 
in your opinion, is concentrating on this 287(g) work and 
leaving the violent crimes uninvestigated, to a large extent?
    Chief Gascon. Well, certainly, they are not concentrating 
on local crime issues. And that is why their crime stats are 
going as high as they are.
    Mr. Nadler. Thank you.
    Let me ask any of the--Professor Harris or Mr. Williams or 
Police Chief Gascon. I am going to be very blunt in one 
question. Why should an American who is not an immigrant, does 
not have immigrant family members or friends, does not care 
about immigrants, why should such a person be concerned about 
State and local law enforcement getting involved in immigration 
enforcement?
    Mr. Harris. Chairman, the answer is pretty straightforward. 
Crime goes up, just as you were pointing out, it went up in 
Maricopa County. When we divert local law enforcement resources 
into the task of immigration enforcement, where it doesn't 
belong, regular criminal behavior goes unaddressed. And that 
spills over onto everyone. Crime doesn't take a holiday as to 
any particular community. It spreads through the entire 
community, disorder spreads everywhere.
    Number two is resources and cost. This isn't free. This is 
all taking away from what local law enforcement should be doing 
as its core mission: serving everybody, including people who 
might not care at all about immigrant issues or immigrant 
families.
    Number three, you have lots of people whose safety is on 
the line every day in police departments. These people are 
risking themselves for our safety. We should allow them to 
concentrate on what they know and what they are good at.
    Mr. Nadler. Thank you.
    Let me ask one further--I ask unanimous consent for one 
further----
    Ms. Lofgren. Unanimous consent for 1 additional minute.
    Mr. Nadler. Thank you.
    Let me ask either Professor Harris or Police Chief Gascon, 
in the previous panel--I assume you heard the testimony of the 
previous panel--we heard Professor Tranchant talk about the 
killing of his daughter by someone who was drunk-driving, an 
illegal immigrant who had been arrested several times 
previously for drunk-driving.
    Now, this hearing is on the question of 287(g) enforcement. 
My question is the question of a logical fallacy. The 
implication of what he was saying is, if you had had 287(g) 
enforcement, this might not have happened.
    My question is the following: Under the law, with or 
without 287(g) enforcement, if someone is arrested for a crime 
and this person is found to be an illegal immigrant, an 
undocumented alien, they can be reported to the INS or the ICE, 
whatever it is these days, and deported when their sentence is 
up.
    So the real problem here seems to be that, despite several 
arrests and convictions for DWI or whatever, this person was 
not deported. So my question is, does this have anything to do 
with 287(g), or is it a question of failure to enforce existing 
law?
    Ms. Lofgren. The gentleman is granted an additional 30 
seconds.
    Mr. Harris. You have caught it exactly, Mr. Chairman. It is 
a question of enforcing existing law. We have immigration laws, 
as one of the other Members pointed out. None of us here are 
against immigration law or the ability of the Nation to police 
its borders and enforce its law. If the Federal Government 
would step up and do its job, as a number of people have said 
here already, it wouldn't be necessary for local law 
enforcement to come into it.
    So this isn't a 287(g) problem that Professor Tranchant was 
pointing out. It is a problem of Federal role being properly 
fulfilled.
    Ms. Lofgren. Would the gentleman yield to me for a quick 
moment?
    Mr. Nadler. Certainly.
    Ms. Lofgren. As our colleague from Arizona was reciting 
some statistics, I did note that the Chief was wincing.
    And do you have a disagreement with our colleague on the 
statistics that he had recited?
    Chief Gascon. Yes, Madam Chair. First of all, I can tell 
you, in my own jurisdiction, we have been tracking for over the 
last year who we arrest that is in the country illegally, and 
our numbers range around 9 to 10 percent annually. And we have 
a Hispanic population that probably exceeds 30 percent today 
but, certainly, according to the Census, over 25 percent. And 
we know that a substantial part of that population is in the 
country without authority.
    I think also, if you look----
    Ms. Lofgren. Could I ask you this? Would you be willing to 
submit those statistics to us for the record?
    And we are going to recess this hearing. We have one vote. 
We are going to rush over, vote, and come back, so we will not 
be having you wait here for a long, long time. But we don't 
want to get all of the Members an opportunity to ask questions. 
So we are going to recess for just a few minutes until we vote 
and return.
    [Recess.]
    Ms. Lofgren. Under the rules, we can reconvene with two 
Members. And although the Ranking Member, I think, is on his 
way, we do have three Members and a bipartisan group. So we 
will turn now to the gentleman from Texas, Mr. Poe, for his 
opportunity to question our witnesses for as long as 5 minutes.
    Chief, are you okay on time?
    Chief Gascon. Madam Chair, they are trying to find out if 
there is another flight.
    They did find it?
    So I am good.
    Ms. Lofgren. Okay, so you got a later flight, and we 
appreciate that.
    Chief Gascon. They said you are going to have to give me a 
hall pass. And I am probably going to be killed, not by the 
cartels, but by my family.
    Ms. Lofgren. I hope not.
    We will turn now to Mr. Poe for his questions.
    Mr. Poe. Thank you, Madam Chair.
    I direct most of my questions to the Chief.
    And I just have a few minutes, Chief, and I know you have 
testified in court before. So, just answer the question; don't 
explain your answer, unless I ask you to do so.
    There are 16 border counties in Texas. All of the counties 
are controlled by sheriffs who are Democrats. Most of them are 
Hispanics. To a person, they believe in enforcement of all of 
the laws in the county.
    Hudspeth County, TX, a big county, size of Delaware, Chief 
Arvin West. When I visited with him over the weekend in 
Hudspeth County, watching the crime there, it has two jails, 
one a contract jail and one a county jail. The county jail has 
125 inmates; the contract jail has 320-plus. Of all of those 
people in jail, two are American citizens. All of the people, 
except the two citizens, are not in jail on immigration 
violations, they are in jail for committing crimes in the 
county other than just being in the county illegally.
    He, like most of the sheriffs on the Texas border anyway, 
believe that cross-border crime is a tremendous problem. And 
they need all the help they can get to enforce the law, 
immigration laws or otherwise.
    I suspect that in Mesa, the city of Mesa, you enforce 
traffic violations, parking violations, jaywalking violations, 
prostitution violations, what we consider in the system the 
most minor of all crimes. Is that correct?
    Chief Gascon. Yes.
    Mr. Poe. But you personally don't believe that the city 
should be helping in immigration violation arrests. Is that 
correct?
    Chief Gascon. That is incorrect.
    Mr. Poe. So you think that you should participate in 
helping with immigration violation arrests.
    Chief Gascon. When we have serious crimes, yes.
    Mr. Poe. Only when a crime is committed. I am talking about 
immigration violation. This person is in the country illegally; 
he didn't rape, commit a robbery, or steal. He is in the 
country illegally. Do you think the city should participate in 
that?
    Chief Gascon. How would we know that the person is here 
illegally?
    Mr. Poe. Don't ask me questions. Answer the question. We 
assume--if you knew the person was in the city illegally, do 
you think that you have an obligation, as a peace officer, to 
help enforce that law? Either you do or don't.
    Chief Gascon. I think the problem with your hypothetical is 
that I have no way of knowing how I got that information.
    Mr. Poe. So you don't believe you should enforce the law if 
the person is in the city illegally. You know he is in the city 
illegally.
    Chief Gascon. How do I know that I----
    Mr. Poe. He tells you. If we are going to have 
hypotheticals, he tells you, ``I am here illegally. I am from 
France.'' Do you think----
    Chief Gascon. Right. Our policy is that if he tells us he 
is here illegally, the officer has the option to provide the 
information, and we give it to the Federal authorities so that 
they can act accordingly.
    Mr. Poe. But you don't believe you should arrest him, the 
city should arrest him?
    Chief Gascon. That we should arrest him?
    Mr. Poe. Yes.
    Chief Gascon. It would depend on the circumstances.
    Mr. Poe. Okay. Well, you are not answering the question. I 
will move on.
    Isn't it true that you have had raids in the city before, 
with Sheriff Arpaio--interesting enough, he is not here to 
testify; he wasn't invited, but you were--and you have been 
told that he is coming into your city, as good law enforcement 
officers do, and all of a sudden----
    Ms. Lofgren. Would the gentleman yield? Because I want to 
make clear that he declined to come. And I would yield back.
    Mr. Poe. All right. I thank the Chair. I was told by him 
that he was not invited, but be that as it may, I accept the 
Chair's----
    Mr. King. Madam Chair, clarify that, please. Was he invited 
formally?
    Ms. Lofgren. No. He said in advance he would not intend to 
come, so we didn't follow up with a formal invitation, no.
    Mr. King. In a formal communication with the Committee?
    Ms. Lofgren. No, in a newspaper article. He said he would 
not come.
    Mr. King. Thank you.
    Mr. Poe. Isn't it ironic that, when you have been informed, 
as the police chief, that he is coming into your city on 
immigration violations under 287(g), that all of a sudden the 
newspaper in Phoenix, AZ, reports that before that raid occurs? 
Maybe that is the reason you are not told anymore, is because 
someone seems to tell the press. Has that occurred, to your 
knowledge?
    Chief Gascon. Actually, it is very ironic, because I got 
notification from the media that he was coming, not from him.
    Mr. Poe. I am not talking about the most recent. I am 
talking about the ones before the most recent.
    Chief Gascon. I am talking about the one before the most 
recent. The notification came from the media to me first and 
then----
    Mr. Poe. Who paid your way to get here today?
    Chief Gascon. Who paid my way?
    Mr. Poe. You heard me. You paid your way?
    Chief Gascon. A group of nonprofit organizations that are 
seeking immigration reform.
    Mr. Poe. Okay, so the city didn't pay your way, the 
taxpayers didn't pay your way, but some immigration people paid 
your way.
    Chief Gascon. Some people that are seeking immigration 
reform.
    Mr. Poe. I see. Wouldn't you agree with the statement that 
we dance with the ones who brung us? And if you were brought 
here by a certain group, you are kind of beholden to them to 
testify a certain way?
    Chief Gascon. Sir, I take offense to your comments. I don't 
dance with anyone. I am not beholden to anyone. I have been in 
this business for 30 years. Prior to that, I was honorably 
discharged from the U.S. Army. I have an impeccable career, 
with honesty and integrity. And I believe in standing for what 
I believe is correct.
    Mr. Poe. All right. What are the names of those groups?
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Poe. Thank you, Madam Chairman.
    Mr. King. I would ask unanimous consent that the witness be 
allowed to answer.
    Chief Gascon. I am sorry?
    Ms. Lofgren. There has been a request for an additional 30 
seconds. So you may, if you wish, identify individuals who have 
donated for your opportunity to be here.
    Chief Gascon. The individuals, I believe--what is the name 
of the organization?
    Ms. Lofgren. If you don't have them, you can submit them 
for the record later.
    Chief Gascon. Yes, I will submit it to you.
    Ms. Lofgren. That will be fine.
    At this point, I would recognize our colleague, Mr. 
Johnson, Chair of the Courts Subcommittee, for his opportunity 
to question the witnesses.
    Mr. Johnson. Thank you, Madam Chair. And I think this is 
just a great topic for us to be delving into.
    One thing that I would like to know, the local law 
enforcement agencies that sign up for this program under 287(g) 
to enforce the Federal immigration laws, is there a 
concentration as to, you know, like, South or Midwest that a 
lot of the requests and certifications, I guess, have been 
awarded to? In other words, are there places in the Nation 
where local law enforcement seems to be involved in this?
    Mr. Kobach. I have the list.
    Mr. Williams. The great majority is in the Southeast and 
Southwest. Sheriff's offices constitute a significant number. 
It is something like 67 law enforcement organizations 
nationally involved with 287(g), out of 17,000 police 
departments.
    Mr. Johnson. Total.
    Mr. Williams. That is correct, total.
    Mr. Johnson. And how many of these are in the Southeast----
    Mr. Williams. I can tell you in excess of 50 percent is in 
Southeast and Southwest. I can't be more specific than that.
    Mr. Johnson. And I will get to you, too, sir.
    Other than the fact that--is there any other reasons for 
that kind of consolidation in certain parts of the country, 
other than the high number of Hispanics that reside in the 
area? Are there any other justifications or rationales that 
people have used to go for this certification, other than just 
we have a lot of Hispanics in the area.
    Mr. Williams. Well, just one little comment on that.
    Mr. Johnson. And I am sorry for being--it is kind of 
difficult for me to express myself the way I want to right now, 
because I am just coming in from an event and thinking about 
some other things. But if you could answer.
    Mr. Williams. We just held focus group meetings with about 
33 police departments in the State of Texas and Kansas and in 
Florida. If you talk to those police leaders about what they 
feel about 287(g) and the departments that are getting 
involved, you will find that there is considerable political 
pressure for local police departments to become involved in the 
enforcement of Federal immigration laws.
    And I think that in the South you probably get a greater 
amount of pressure, because the South is one of the new 
migration points for the immigrants as they come into the 
country. There used to be gateway areas, but now the South is 
the area that they are moving to. And it is creating issues 
associated with the politics, because of the differential in 
terms of persons that are coming in.
    Mr. Johnson. But there is really no other reason----
    Mr. Williams. Those are the ones that I know.
    Mr. Johnson. Okay.
    And, Mr. Kobach, do you want to answer that question, also?
    I want someone else to answer if any of the agencies get 
any Federal funding to do what they do.
    Mr. Kobach. I can answer specifically your--I have the list 
of the 67 agencies that have it. It is pretty well distributed 
around the country: four in California, three in the State of 
Massachusetts, one in Minnesota, one in Missouri, nine in 
Virginia alone. And in Arizona there are--sorry, I said in my 
testimony earlier that there were six; there is actually a 
total of seven jurisdictions in the State of Arizona. So it is 
pretty well widespread.
    But I think it is fair to say there are a significant 
number in the Southwest and in the Southeast, but that is also 
the case that the Southwest and the Southeast have seen a large 
influx of illegal immigration. And so we can see the 287(g) 
program as local entities, sovereign States or countries--not 
sovereign counties--but sovereign States saying, we have a 
need----
    Mr. Johnson. Certainly, States have the right, if they are 
not preempted by the government. So that is fine, I understand 
that. I want to--because I am running out of time. I also want 
to ask, I know that there is an approval and a training 
process.
    Mr. Kobach. Four to six weeks of training.
    Ms. Lofgren. The gentleman's time has expired. Does he ask 
unanimous consent for an additional minute?
    Mr. Johnson. I do.
    Ms. Lofgren. Without objection, so ordered.
    Mr. Johnson. All right.
    Once you have certified, you start enforcing, picking folks 
up and enforcing the Federal law, is there a way for people who 
feel like they are aggrieved by the law enforcement conduct, or 
misconduct as they may see it, is there someplace that they can 
file a complaint with a neutral body that will look at it?
    And, also, the money issue. How do we do continuing 
education, if you will, continuing certification to make sure 
that the standards are being upheld?
    Mr. Harris. Mr. Johnson, as far as your question about 
complaints, one of the great problems with looking at what is 
going on in this area--and I have heard a couple of witnesses, 
different people, say this morning, ``Well, we have no 
complaints about that.'' There are two things you have to 
remember: Complaints are not a measurement of conduct by law 
enforcement or by anybody else about who----
    Mr. Johnson. No, I am not inferring that it is, but I would 
think normally you would have some kind of mechanism.
    Mr. Harris. Well, you should have a mechanism, but the 
problem is that the people in this process who might have 
complaints are often deported or they are in fear of making 
complaints because they, themselves, somebody in their 
household may be illegal, since we have millions of people in 
mixed-status households. That is why there is such a low level 
of complaints even when there are processes for it.
    Ms. Lofgren. The gentleman's time has expired.
    I would turn now to the Ranking Member, the gentlemen from 
Utah, and he is recognized for 5 minutes.
    Mr. Chaffetz. Thank you, Madam Chair.
    I ask unanimous consent to insert into the record an 
article that appeared in today's Examiner entitled, ``Violent 
Crime Down in Prince William.''
    Ms. Lofgren. Without objection.
    Mr. Chaffetz. Thank you.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Chaffetz. Thank you all for being here and changing 
your flight. It is very nice and very kind.
    Professor, you were very emphatic at the beginning of your 
testimony that there is no training whatsoever for those in 
agencies and those officers that are engaged or fall into this 
287(g). Do you care to clarify the record there? They are 
trained, are they not?
    Mr. Harris. The agencies----
    Mr. Chaffetz. Yes or no, are they trained?
    Mr. Harris. The agencies that are involved in 287(g) 
receive 4 weeks of training. That is what the GAO said.
    Mr. Chaffetz. Okay, but at the very beginning of your 
testimony, you said no training, no education, no ability--I 
mean, these are law enforcement officers who have gone through 
extensive training not only about the law but about the 
Constitution, and so they have about background in this. And 
they go through a very specific training, do they not?
    Mr. Harris. Only the ones in 287(g). The rest of the local 
and State law enforcement officers that I was talking about get 
no training in immigration law, none.
    Mr. Chaffetz. Professor Kobach, could you, from your point 
of view and perspective, tell us a little bit about that 
training that they do go through?
    Mr. Kobach. Each memorandum of agreement that is signed 
with a jurisdiction for 287(g) specifies what the areas of 
training will be, and it varies because some jurisdictions 
would like to do more with their authority than others. For 
example, if a jurisdiction is just reviewing prisoners and not 
actually out in the streets operating as so-called deputized 
agents of the Federal Government, then they would need less 
areas of training. So those would be only a 4-week program. 
But, for example, Florida, the first jurisdiction that got 
287(g) authority, they had 6 weeks of training. Alabama's 
officers had 5 weeks of trainings. So it varies. Each MOA----
    Mr. Chaffetz. But they are trained.
    Mr. Kobach. They are all trained, absolutely.
    Mr. Chaffetz. Yes. Thank you.
    Professor Harris, what other Federal laws do you suggest we 
not enforce at the local level?
    Mr. Harris. I suggest that the appropriate agencies enforce 
all the laws that are on the books. The Federal Government and 
ICE should enforce immigration law. I want my local police 
enforcing my criminal codes and my city codes. And----
    Mr. Chaffetz. But the implementation of 287(g) you believe 
would be inappropriate?
    Mr. Harris. For local people to do that? Yes, because they 
have a job to do, and it interferes with that job. It shifts 
their resources away from----
    Mr. Chaffetz. But it doesn't have anything to do with a 
lack of training. They go through training.
    Mr. Harris. If they are under 287(g).
    Mr. Chaffetz. So if they are under 287(g), there shouldn't 
be a problem with them enforcing the immigration laws, even at 
the local level?
    Mr. Harris. That is if you assume that the 4 weeks of 
training is enough to get them up to speed on what is one of 
the most complicated bodies of law that we have. And I simply 
don't accept that.
    Mr. Chaffetz. Well, okay. I think that is clear, that you 
have no desire to have them do that. I understand that.
    Would you then join me, if you think that there is a lack 
of training and understanding, would you support me in 
supporting funding for thousands of new Federal immigration 
enforcement agents who would be trained in the nuances of 
immigration law?
    Mr. Harris. If we want real immigration enforcement, yes. 
There has to be a lot more well-trained and experienced 
immigration, dedicated immigration----
    Mr. Chaffetz. You would actually join in advocating that we 
spend much, much more----
    Mr. Harris. Absolutely, absolutely. If that is what the 
American people and the Congress want, they have to step up and 
fund it.
    Mr. Chaffetz. Very good. In your written testimony, you 
discuss the actions of Maricopa County Sheriff Joe Arpaio. Have 
you ever met the sheriff?
    Mr. Harris. No.
    Mr. Chaffetz. Have you ever been there?
    Mr. Harris. Oh, yes.
    Mr. Chaffetz. To his facility.
    Mr. Harris. To his facility? No. I have been to his 
jurisdiction.
    Mr. Chaffetz. I mean, you have been to Phoenix, okay. But 
have you ever been involved with the sheriff's department 
there? To what extent have you interacted with them whatsoever?
    Mr. Harris. I haven't interacted with them, but I have read 
the Goldwater report very extensively. I have talked with its 
author very extensively. And I am aware----
    Mr. Chaffetz. So you, personally, have no direct experience 
with Joe Arpaio or the sheriff's department there in Maricopa 
County, correct? Other than reading an article?
    Mr. Harris. No, not other than reading an article. And I am 
also aware----
    Mr. Chaffetz. Have you ever been there?
    Mr. Harris [continuing]. That there are three lawsuits 
against him, as well.
    Mr. Chaffetz. I am sorry, say that again?
    Mr. Harris. There are three lawsuits existing now for 
racial profiling in Maricopa County.
    Mr. Chaffetz. But you personally have never--okay, I think 
I understand that.
    And, finally, could we talk a little bit about the NCIC? I 
think there was some confusion, and, Professor Kobach, I would 
appreciate it if you could expand a little bit and explain how 
that works, who goes into the system, who doesn't, from your 
perspective, please.
    Mr. Kobach. I would be happy to. Chairman Conyers earlier 
suggested he thought that maybe your name could appear in NCIC 
simply because you reported a crime. That is incorrect. NCIC is 
a shared database that is under the custody of the Department 
of Justice and Attorney General and that State and local 
jurisdictions can input data. The data they bring into it is 
usually arrests--where a person is formally documented, 
fingerprinted--arrests and criminal convictions.
    Now, the Federal Government puts in all kinds of data. 
Recently, when I was working at the Department of Justice, we 
started bringing in alien data. There are only three categories 
of aliens in NCIC, and one of the witnesses, I think, misstated 
in written testimony the categories. The first one is 
previously deported felons, and these have previously been 
deported from the United States because of serious felonies and 
have tried to reenter or may reenter, and therefore we would 
want the local officer to know who he is encountering. Second 
is absconders. We have over half a million people in this 
country who have had their day in immigration court, have been 
deported, and have become fugitives.
    Ms. Lofgren. The gentleman's time has expired and, by 
unanimous consent, is granted an additional minute.
    Mr. Chaffetz. Thank you.
    Mr. Kobach. And those absconders are fugitives who have 
already had their day in immigration court. And, obviously, it 
is a mockery of the rule of law if we can't even enforce what 
our immigration courts are supposed to be doing.
    The third category of aliens in NCIC are aliens of a 
national security risk. And those are individuals who have 
committed some immigration violation, no matter what it is, but 
are also of a higher national security concern. And that is 
borne in part out of the fact that there were five of the 9/11 
cohort who had committed immigration violations. The most 
common violation was overstaying a visa, which is a civil 
violation.
    On September 9, 2001, just north of here, on highway 95, 
Ziad Jarrah, one of the pilots, was pulled over for speeding. 
He was going about 90 miles an hour, trying to meet his group 
in Newark at the airport. If the officer had had information in 
NCIC saying that this individual is illegally present in the 
country and we have certain national security questions, we 
might have been able to get that officer to detain that 
individual. So that is the kind of character we are talking 
about.
    Mr. Chaffetz. Thank you.
    Thank you, Madam Chair.
    Ms. Lofgren. The gentleman's time has expired.
    The Ranking Member is recognized for his opportunity to 
question the witnesses for 5 minutes.
    Mr. King. Thank you, Madam Chair.
    I do want to thank all the witness for your testimony 
today, and this has been a very compelling hearing.
    Looking across the panel of the distinguished witnesses 
that we have, and I recognize that Professor Kobach has drafted 
an Albany Law Review article that is dated 2005 that addresses 
the issue of local jurisdiction of enforcement of immigration 
law. And I would ask unanimous consent to introduce the Albany 
Law Review article.
    Ms. Lofgren. Without objection, it is entered into the 
record.
    Mr. King. Thank you, Madam Chair.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. King. And while I am working my way down through this 
list of paperwork that has been accumulated during this 
hearing, I have in my hand three articles that address the 
Southern Poverty Law Center. One is Harper's magazine, one is 
Discover the Networks, the other is Human Events. And I ask 
unanimous consent to enter those into the record.
    Ms. Lofgren. Without objection, so ordered.
    Mr. King. Thank you, Madam Chair.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                               __________
    Mr. King. And that brings me to another subject here. As I 
listen to the focus on at least the implication, if not the 
allegation, of racial bias on the part of law enforcement, 
especially local jurisdiction, I just began to ask the question 
that I didn't know the answer to and I asked staff to go back 
and find it for me.
    And it would seem appropriate to me that, if we are going 
to have nonracially-biased enforcement across this country, 
local jurisdiction to the Federal jurisdiction, across the 
spectrum, then the enforcement should reflect, perhaps, roughly 
the percentage of the nationalities of those who are having the 
law enforced against them. In other words, I ask the question, 
if this is focused on Hispanic, which has been the case in this 
hearing all afternoon, what percentage of illegal immigrants 
are Hispanic?
    And I have a report here that is produced by the Pew 
Hispanic Center that is dated October 2, 2008. And it breaks 
this out, and it says that of African descent, 4 percent; 
European and Canadian, 4 percent; Asian, 12 percent; other 
Latin American, Mexican, 81 percent. So I think that would 
reflect that 81 percent of those violators are Hispanic.
    And I would ask unanimous consent to introduce the Pew 
study into the record.
    Ms. Lofgren. Without objection.
    Mr. King. Thank you, Madam Chair.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. King. So I think I make my point here, that law 
enforcement has to reflect and focus on where the laws are 
being broken.
    And maybe for one more clarification, Professor Harris, I 
think I listened to Professor Kobach make a clarification, a 
statement on some of your testimony. And I want to give you an 
opportunity to respond. And I think it has to do with, on your 
testimony, page 3. I am looking at the language, ``In direct 
violation of these rules, the Department of Justice puts tens 
of thousands of immigration warrants, most of which are civil 
in nature and do not even pertain to crimes, in NCIC, with the 
goal of forcing local police to make arrests on these 
warrants.''
    Now, would you care to address that as part of your 
testimony? Is it your position that Justice does that?
    Mr. Harris. Congressman King, the NCIC database is governed 
by a series of Federal statutes and regulations. It is overseen 
by the FBI. There are very strict rules on what can go in it 
and what can't. And the objective is to keep the database 
absolutely clean and pristine of errors and to focus it on 
crime.
    What has happened over the past several years, 5, 6 years--
--
    Mr. King. But is the answer yes?
    Mr. Harris. The answer is other than things that are 
allowed in that database have been going into it, have been put 
into it, yes.
    Mr. King. Okay, then you stand on the statement that the 
Department of Justice puts tens of thousands of immigration 
warrants into NCIC?
    Mr. Harris. That has been done, yes.
    Mr. King. Thank you.
    And I would turn then to Professor Kobach and ask if you 
would clarify your response on that, please.
    Mr. Kobach. Yes. I would note that Professor Harris didn't 
give you a specific rule and did not give you any specific--
there is no statute, certainly, but there is no specific rule 
that suggests that people of alien status, as opposed to 
citizens, cannot be listed in NCIS or that the basis of an 
immigration violation cannot be included in NCIC.
    NCIC is--the rules, by Attorney General order, may be 
modified as to the protocols of putting people in and out. But 
I think it would be foolish to argue that someone who is a 
previously reported felon and presents a danger to a police 
officer when he is engaged in a traffic stop, that the police 
officer should be blind to that information. Or that if our 
system, our immigration court system has spent thousands, maybe 
hundreds of thousands of dollars at all the levels of appeal 
trying to deport a person, and then that person is finally 
deported at the end of the day and they vanish, that we 
shouldn't try to execute the final removal of that person.
    So, you know, it is completely within any regulations that 
govern NCIC. And the Department of Justice looked at that very 
carefully before aliens were put into the system.
    Mr. King. Thank you, Professor Kobach.
    Just one concluding question here, and then I will yield 
back my time after the response.
    But I just have to comment, Chief Gascon, that it is a bit 
astonishing to me that you would come here and have your trip 
paid by entities out there that don't come to the front of your 
mind when you are asked that question before this Committee. I 
would think that, in the business that you are in, you would 
ask the question before you came, as to who might be funding 
it. And I remain curious about that, and if you would like to 
further enlighten this Committee, I would sure appreciate it.
    Chief Gascon. Yeah. And, as I indicated, I will provide you 
that information. There are multiple groups, and I will get 
that information to you. It will be a pleasure.
    Mr. King. I thank you, Chief Gascon. I am still a bit 
speechless at that response, and I would hope that when others 
come here they will be able to answer that question up front 
instead of in writing afterwards.
    And, as I promised, I thank all the witnesses and yield 
back the balance of my time.
    Ms. Lofgren. The gentleman's time has expired.
    Without objection, I would enter into the record the 
testimony of William Riley, the acting executive director of 
the Office of State and Local Coordination for ICE, that was 
offered to the Homeland Security Committee, which I also serve 
on, on March 4, indicating that in entirethe State of Florida 
there are 58 officers who have been trained under the program.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Ms. Lofgren. And also, without objection, I am entering 
into the record the executive summary of the Justice Strategies 
report, indicating that 80 percent of these 287 agreements are 
in the South.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. King. Madam Chair, could I ask a short deference, 
please?
    Ms. Lofgren. I would yield for a question.
    Mr. King. I thank you.
    What I really have is a statement that I intended to 
introduce. And I wonder if I could introduce my statement into 
the record, unanimous consent, on----
    Ms. Lofgren. Without objection.
    Mr. King. Thank you.
    [The prepared statement of Mr. King follows:]
  Prepared Statement of the Honorable Steve King, a Representative in 
 Congress from the State of Iowa, and Ranking Member, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    Before we begin our discussion here today, I'd like to set out the 
underlying federal law that governs state and local law enforcement.
    The use of race or national origin in law enforcement is only 
strictly prohibited when race or national origin is the sole criteria 
for the law enforcement action, based on an invidious purpose. As the 
Supreme Court made clear in the 1996 case of Bush v. Vera, mere 
``racial disproportions in the level of [law enforcement activity] for 
a particular crime may be unobjectionable if they merely reflect racial 
disproportions in the commission of that crime.''
    To give an example, the Supreme Court has upheld a program in which 
vehicles passing through a permanent checkpoint 66 miles from the 
Mexican border were visually screened by Border Patrol agents for 
occupants who appeared to be of Mexican national origin. In that case, 
United States v. Martinez-Fuerte, the Court held that it was 
constitutional for the border patrol--after routinely stopping or 
slowing automobiles at a permanent checkpoint--to refer motorists 
selectively to a secondary inspection area for questions about 
citizenship and immigration status. The Court held that there was no 
constitutional violation even if such referrals were made largely on 
basis of apparent Mexican ancestry.
    The Supreme Court later made clear, in the 1981 case of Haig v. 
Agee, that such holdings are appropriate given that ``It is obvious and 
unarguable that no governmental interest is more compelling than the 
security of the Nation.''
    Even beyond the context of border security, law enforcement has 
broad discretion to reasonably rely on the factors of race or national 
origin, as long as such criteria are not the sole criteria that 
invidiously motivates action by law enforcement.
    Indeed, under the Department of Justice's own official guidelines 
on the use of race by law enforcement, it is made clear that:

        in conducting an ongoing investigation into a specific criminal 
        organization whose membership has been identified as being 
        overwhelmingly of one ethnicity, law enforcement should not be 
        expected to disregard such facts in pursuing investigative 
        leads into the organization's activities.

    The Department of Justice guidelines further state that:

        Federal authorities may also use reliable, locally relevant 
        information linking persons of a certain race or ethnicity to a 
        particular incident, unlawful scheme, or ongoing criminal 
        enterprise [including a gang]--even absent a description of any 
        particular individual suspect.

    Of course, law enforcement at its discretion can impose on itself 
restrictions beyond what is prohibited by constitutional law 
precedents. But those decisions should be made by state and local law 
enforcement working to protect citizens in local jurisdictions--not by 
Members of Congress thousands of miles away in Washington, D.C.
    So what are the effects of these policies? I would suggest that 
when used correctly by law enforcement officials, the effect is safer 
communities. And safer communities are also created when state and 
local law enforcement officials help to enforce federal immigration 
law.
    That is made even more clear when we look at examples in which 
state or local law enforcement has failed to do so. For instance, four 
of the 9/11 hijackers had documented contact with state or local law 
enforcement officers after entering the United States. All four were 
pulled over for traffic infractions at one point in the months before 
September 2001. Unfortunately none were reported to federal immigration 
officials despite their violations of federal immigration laws. We all 
know the devastating results of the hijackers' malicious activities.
    And Operation Community Shield is an on-going example of the 
benefits of coordination among federal, state and local law enforcement 
entities. It is a law enforcement program in which federal state and 
local officials work together to conduct criminal investigations and 
other law enforcement operations against violent criminal alien street 
gangs.
    According to ICE, since Operation Community Shield's inception, 
17,655 street gang members and associates, from over 700 different 
gangs have been arrested and are no longer on America's streets. One 
hundred-seven of those arrested were gang leaders and more than 2,555 
of those arrested had violent criminal histories.
    By virtue of their sheer numbers, the over 740,000 state and local 
law enforcement personnel, come into contact with many more people on 
any given day, than do federal law enforcement officials. This contact 
can result, and has resulted, in the arrest of illegal immigrants who 
would otherwise be free to commit future crimes. Remember no crime by 
illegal immigrants would ever occur if they were removed from the 
United States before they could strike. These are truly ``senseless'' 
crimes.
    Sadly, the state and local law enforcement officers who came into 
contact with Alfredo Ramos prior to March 30, 2007, were prohibited by 
their jurisdictions from coordinating with federal immigration 
officials. I say sadly, since on that day, Ramos killed 16 year old 
Tessa Tranchant and her 17 year old friend Alison Kunhardt. We will 
hear shortly about the devastating effects of lack of law enforcement 
coordination from Tessa's father who is here today. Tessa, Alison, 
their families and the other victims of criminal aliens are the ones 
whose country failed to protect them. They are the true victims.
    If I have to choose between political correctness and ensuring the 
safety of the American people, I will chose the American people in a 
heartbeat.
                               __________

    Ms. Lofgren. This hearing is about at an end. And I would 
like to thank all of the witnesses who appeared and all of the 
individuals who have watched. I think that we have learned, at 
least I feel that I have learned, some things today.
    And I do not believe that this is the end of our inquiry 
into this matter. We do know that the Secretary of Homeland 
Security has initiated a review of this program. And I think, 
based on the testimony today, that is highly appropriate.
    So, at this point, I will--you know, a lot of people don't 
realize you are here on your own time. We do appreciate your 
service to the Congress and to the country through your 
testimony.
    And this hearing is now adjourned.
    [Whereupon, at 3:24 p.m., the Subcommittees were 
adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


--------
*The security camera footage from October 16, 2008 referenced in item 2 
above is on file with the Subcommittees.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
